<html>
<title> - OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
    OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON DIGITAL COMMERCE AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

                           Serial No. 115-98
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
 
 


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                        
                        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-061                   WASHINGTON : 2018                             
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

        Subcommittee on Digital Commerce and Consumer Protection

                         ROBERT E. LATTA, Ohio
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
                                       Ranking Member
GREGG HARPER, Mississippi            BEN RAY LUJAN, New Mexico
  Vice Chairman                      YVETTE D. CLARKE, New York
FRED UPTON, Michigan                 TONY CARDENAS, California
MICHAEL C. BURGESS, Texas            DEBBIE DINGELL, Michigan
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
DAVID B. McKINLEY, West Virgina      JOSEPH P. KENNEDY, III, 
ADAM KINZINGER, Illinois                 Massachusetts
GUS M. BILIRAKIS, Florida            GENE GREEN, Texas
LARRY BUCSHON, Indiana               FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8

                               Witnesses

Heidi King, Deputy Administrator, National Highway Traffic Safety 
  Administration.................................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    55

                           Submitted Material

Statement of the Center for Auto Safety..........................    51


    OVERSIGHT OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                  House of Representatives,
     Subcommittee on Digital Commerce and Consumer 
                                        Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2123, Rayburn House Office Building, Hon. Robert Latta, 
(chairman of the subcommittee) presiding.
    Present: Representatives Latta, Kinzinger, Burgess, Upton, 
Lance, Guthrie, McKinley, Bilirakis, Bucshon, Mullin, Walters, 
Costello, Walden (ex officio), Schakowsky, Cardenas, Dingell, 
Matsui, Welch, Kennedy, Green, and Pallone (ex officio).
    Staff Present: Mike Bloomquist, Deputy Staff Director; 
Daniel Butler, Staff Assistant; Kelly Collins, Legislative 
Clerk, Energy/Environment; Melissa Froelich, Chief Counsel, 
DCCP; Adam Fromm, Director of Outreach and Coalitions; Ali 
Fulling, Legislative Clerk, O&I, DCCP; Elena Hernandez, Press 
Secretary; Paul Jackson, Professional Staff, DCCP; Bijan 
Koohmaraie, Counsel, DCCP; Mark Ratner, Policy Coordinator; 
Madeline Vey, Policy Coordinator, DCCP; Greg Zerzan, Counsel, 
DCCP; Michelle Ash, Minority Chief Counsel, Digital Commerce 
and Consumer Protection; Jeff Carroll, Minority Staff Director; 
Evan Gilbert, Minority Press Assistant; Lisa Goldman, Minority 
Counsel; Zach Kahan, Minority Outreach and Member Services 
Coordinator; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Caroline Paris-Behr, Minority 
Policy Analyst; and Michelle Rusk, Minority FTC Detailee.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Good morning, I would like to call the 
Subcommittee on Digital Commence and Consumer Protection to 
order. The chair now recognizes himself for 5 minutes for an 
opening statement.
    I would like to begin by recognizing someone who is sadly 
not with us today. Last week, the Energy and Commerce Committee 
lost our staff director, Ray Baum, after a year's long battle 
with cancer. Ray was a dedicated public servant both here in 
Washington and at home in Oregon, an exemplary leader on the 
committee and a good friend. Our thoughts and prayers are with 
his family during this difficult time.
    In that vein, again, let me thank you for being here today. 
Welcome, again, to the subcommittee's hearing today on 
oversight of the National Highway Traffic Safety 
Administration, NHTSA. The Deputy Administrator, Heidi King, is 
here to update the committee on many important safety issues at 
NHTSA.
    Oversight of agencies within the committee's jurisdiction 
is critical, we thank you, again, Ms. King, for appearing 
before us to discuss NHTSA's priorities and answer questions.
    NHTSA was established by Congress in 1970 to oversee motor 
vehicle safety, and it is tasked with reducing traffic-related 
deaths incurred, injuries, and economic losses. NHTSA 
accomplishes its vehicle safety mission through three major 
programs: setting motor vehicle safety standards, enforcement 
of investigating motor vehicle defects in administrating its 
recall program, and research data collection and data analysis. 
Today, the mission remains to keep drivers safe. All the tools 
at NHTSA's disposal are important, including recent updates to 
IT infrastructure within the Office of Defect Investigations.
    In recent years, our country has seen an unacceptable rate 
in traffic fatalities. In 2015, traffic deaths rose by 7.7 
percent, and in 2016, we lost more than 37,000 individuals on 
our roadways. This 2-year increase is the most dramatic 
escalation in traffic fatalities in more than 50 years. 
According to NHTSA, the three main causes of accidents are, 
one, people not wearing their seat belts; two, impaired 
driving, either drunk or drugged driving; and, three, driver 
error. Ninety-four percent of all accidents are due to human 
error. We need to continue to work to find real-world solutions 
that reduce risk and save lives.
    Technology plays an important role in improving motor 
vehicle safety, and we are seeing more and more advanced safety 
features in cars on the road today. Over a year ago, this 
subcommittee began a review of these new automated features and 
then expanded to examining the path to self-driving vehicle 
technology here in the United States. After three hearings, two 
markups, and hundreds of meetings, we passed the SELF DRIVE Act 
54 to zero out of this committee, and the House voice voted to 
approve the bill last September. We will continue to work to 
get the bill to the President's desk. We know this technology 
will not wait for the government to catch up. As other 
countries work to surpass the U.S. in the race for self-driving 
technology, we are going to make sure that this incredible 
innovation, and the high-quality jobs it brings, stays rate 
here at home.
    With that background, it is encouraging to see the 
continued focus at NHTSA on self-driving technology and the 
potential benefits to improve safety. When this process began, 
the first Federal automated vehicle policy outlined one of the 
basic principles that laid the foundation for the SELF DRIVE 
Act. NHTSA is the national safety regulator for the design, 
construction, and performance of motor vehicles. This is true 
today and should remain true as we transition to a fleet that 
includes self-driving cars.
    Turning to driver impairment, I applaud the agency's recent 
announcement of an initiative to combat drugged driving. 
According to recent reports, drivers killed in a car crash in 
which drugs were detected surpassed those killed in crashes 
where only alcohol was involved. In 2015, 43 percent of fatal 
crashes involved drugs, compared to 37 percent involved 
alcohol.
    The opioid crisis is having a fatal impact in my district 
and in every state across the country. In 2016 alone, 4,050 
people lost their lives in Ohio due to unintentional drug 
overdoses. I have been active in this committee and in my 
district working on this epidemic. The opioid crisis in America 
is far reaching and devastating to families, communities. 
Combating the epidemic is an all-hands-on-deck effort, and part 
of it includes examining drugged driving initiatives, like 
improving roadside detection supporting law enforcement. We 
stand ready to help our communities address all aspects of the 
opioid crisis and save lives. We are also continuing to deal 
with the Takata recall, thus the scope and complexity of this 
recall has resulted in recall completion rates lower in a pace 
slower than has been frustrating both as a lawmaker and as a 
consumer.
    With recalls scheduled in 2020, I look forward to an update 
on the status of this recall and any lessons learned by NHTSA 
that can be used in future recalls. I encourage consumers to 
visit safercar.gov to check if their car is subject to a 
recall.
    Deputy Administrator King, thank you again for being with 
us today, and I look forward to working with you on these many 
important issues.
    And, with that, I would like to call on the gentlelady from 
Illinois, the ranking member of the subcommittee, for her 
opening statement.
    [The prepared statement of Mr. Latta follows:]

               Prepared statement of Hon. Robert E. Latta

    Good morning. I would like to begin by recognizing a major 
loss to the Energy and Commerce Committee with the passing of 
Ray Baum late last week. Ray was a dedicated public servant 
both here in DC and at home in Oregon. My thoughts and prayers 
are with his family during this difficult time. Mr. Chairman, 
as you said, we will honor his legacy by continuing the work of 
the committee following his example: with graciousness and 
honor.
    Welcome to the Digital Commerce and Consumer Protection 
Subcommittee's hearing ``Oversight of the National Highway 
Traffic Safety Administration (NHTSA).'' The Deputy 
Administrator, Heidi King, is here to update the committee on 
many important safety issues at NHTSA. Oversight of agencies 
within the committee's jurisdiction is critical. Thank you, Ms. 
King, for appearing today to discuss NHTSA's priorities and 
answer questions.
    NHTSA was established by Congress in 1970 to oversee motor 
vehicle safety, and is tasked with reducing traffic-related 
deaths, injuries and economic losses. NHTSA accomplishes its 
vehicle safety mission through three major programs:
    <bullet> Setting motor vehicle safety standards or FMVSS;
    <bullet> Enforcement by investigating motor vehicle defects 
and administering its recall program; and
    <bullet> Research, data collection, and data analysis.
    Today, this mission to keep drivers safe is as important as 
it has ever been. All of the tools at NHTSA's disposal are 
important, including recent updates to IT infrastructure within 
the Office of Defect Investigations. In recent years, our 
country has seen an unacceptable rise in traffic fatalities. In 
2015, traffic deaths rose by 7.7 percent and in 2016, we lost 
more than 37,000 individuals on our roadways--a 5.6 percent 
increase. This 2-year increase is the most dramatic escalation 
in traffic fatalities in more than 50 years.
    According to NHTSA, the three main causes of accidents are:
    (1) people not wearing their seatbelts;
    (2) impaired driving (drunk or drugged driving); and
    (3) driver error. 94% of all accidents are due to human 
error.
    We need to continue to work together to find real-world 
solutions that reduce these risks and help save lives.
    Technology plays an important role in improving motor 
vehicle safety, and we are seeing more and more advanced safety 
features in cars on the road today. Over a year ago, this 
subcommittee began a review of these new automated features and 
then expanded to examining the path to self-driving vehicle 
technology here in the U.S. After three hearings, two markups, 
and hundreds of meetings, we passed the SELF DRIVE Act 54-0 out 
of this Committee and the House voice voted to approve the bill 
last September.
    I would like to take this opportunity to thank all my 
colleagues on the subcommittee for their hard work in 
developing bills that were included in the final legislation. 
We will continue to work to get the bill to the President's 
desk this year because we know this technology will not wait 
for the government to catch up. As other countries work to 
surpass the U.S. in the race for self-driving technology, we 
want to make sure this incredible innovation, and the high-
quality jobs it brings, stay right here at home.
    With that background, it is encouraging to see the 
continued focus at NHTSA on self-driving technology and the 
potential benefits to improve safety. When this process began, 
the first Federal Automated Vehicle Policy outlined one of the 
basic principles that laid the foundation for the SELF DRIVE 
Act:
    <bullet> NHTSA is the national safety regulator for the 
design, construction, and performance of motor vehicles.
    This is true today and should remain true as we transition 
to a fleet that includes self-driving cars.
    Turning to driver impairment: I applaud the agency's recent 
announcement of an initiative to combat drugged-driving. 
According to recent reports, drivers killed in a car crash in 
which drugs were detected has now surpassed those killed in 
crashes where only alcohol was involved. In 2015, 43 percent of 
fatal crashes involved drugs compared to 37 percent that 
involved alcohol. The opioid crisis is having a fatal impact in 
my district and every state across the country. In 2016 alone, 
4,050 Ohio residents died of unintentional drug overdoses. In 
October 2017, I held a forum in Defiance to bring people 
together from my district as wellas representatives from DEA 
and HHS to discuss steps that can be taken to address this 
tragic epidemic.
    The opioid crisis in America is far-reaching, and 
devastating to families and communities. Combating the epidemic 
is an all-hands-on-deck effort, and part of it includes 
examining drugged driving initiatives, like improving roadside 
detection and supporting local law enforcement. We stand ready 
to help our communities address all aspects of the opioid 
crisis and save lives.
    One final ongoing issue that this subcommittee will be 
dealing with for years to come: the Takata recall. The scope 
and complexity of this recall has resulted in recall completion 
rates lower and at a pace slower that have been frustrating 
both as a lawmaker and as a consumer. With recalls scheduled 
into 2020, I look forward to an update on the status of this 
recall and any lessons learned by NHTSA that can be used in 
future recalls. I encourage consumers to visit safercar.gov to 
check if their car is subject to recall.
    Deputy Administrator King, thank you for being here today 
and I look forward to working with you on these and many other 
important issues.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    Let me first say on behalf of the Democrats that we also 
mourn the loss of Ray, express gratitude to him for his great 
service to our committee and our country, and send our 
condolences to his loved ones.
    Today, we ha ve our first oversight hearing for NHTSA, the 
National Highway Traffic Safety Administration, under the Trump 
administration. NHTSA continues to be without a Senate-
confirmed Administrator. In fact, the President has not even 
announced a nominee. Still, I am very pleased to welcome Deputy 
Administrator Heidi King and thank her for the opportunity she 
gave me to meet with her last November, and I look forward to 
continuing our conversation on innovation and safety.
    NHTSA faces major challenges. For the past 2 years, traffic 
fatalities have increased, reversing years of progress. At the 
same time, the agency's resources are stretched thinner than 
ever, even as the staff is called upon to address today's 
safety challenges while preparing for the self-driving cars of 
tomorrow: more responsibility, less resources.
    The SELF DRIVE Act, which passed the House last year with 
bipartisan support, requires NHTSA to create and carry out a 
plan for new and updated safety standards. Fulfilling that 
mandate requires staff with the experience and capacity to 
ensure safe development of new technologies.
    Passage of AV legislation is just the first step. The long-
term success of autonomous vehicles will be shaped by NHTSA. 
But NHTSA's work on autonomous vehicles cannot come at the 
expense of conventional vehicles. Consumers have been 
overwhelmed the last couple of years with recall announcements 
from Takata airbags to GM ignition switches. Recall 
effectiveness remains too low. We made progress in the FAST Act 
by restricting rental cars under open recalls. Unfortunately, 
auto dealers can still sell used cars under open recall.
    Some auto dealers are even taking backward steps. In 
December 2016, AutoNation ended its pledge to not sell vehicles 
under open recall. AutoNation's CEO, Mike Jackson, explained: 
With the Trump administration, there is no way that that issue 
is going to be addressed from a regulatory point of view.'' So 
far, he has been proven right.
    I have introduced the Used Car Safety Recall Repair Act to 
fix this problem. I have also pushed for imminent hazard 
authority and stronger penalties for violating safety 
standards. I would welcome the administration's support for 
these efforts.
    As we push for further safety improvements, many 
rulemakings, including rulemakings directed by Congress, remain 
pending with no obvious progress over the last year. I will be 
seeking status updates on several of those rulemakings during 
my questions. I am worried about these delays because I know 
all too well how long it can take to get legislation put into 
effect. It has been a 10-year battle to get my legislation to 
prevent child backover deaths to be implemented. Finally, in 
2018, backup cameras will be standard in all new passenger 
vehicles and lives will be saved.
    I wonder what other safety improvements are stalled at 
NHTSA and will continue to be stalled by the administration's 
anticonsumer efforts to minimize new safety protections and how 
many lives will be lost in the meantime.
    I am also concerned about this administration's rollback of 
energy efficiency standards adopted during the Obama 
administration. NHTSA is currently evaluating or I should say 
reevaluating the corporate average fuel economy standards for 
model years. I guess I am not out of time. It is no mystery why 
CAFE standards are being reviewed. This administration has 
bowed to industry pressure to lower them. I have also seen 
reports that changes to the standards could extend to model 
year 2021 and 2026. Maybe we will get some clarity on that 
today. Otherwise, we will see what happens when the new 
proposal comes out on March 30.
    Strong fuel economy standards drive innovation, as we have 
seen what the tremendous gains in fuel efficiency since the 
CAFE program began. I hate to see us reverse that. So, Ms. 
King, I want to thank you for being here today. I look forward 
to working with you on all of these issues as long as you are 
in that role. I hope you share my sense of urgency in improving 
the safety and efficiency of America's vehicles.
    Thank you. And I yield back.
    Mr. Latta. The gentlelady yields back.
    And the chair now recognizes the gentleman from Oregon, the 
chairman of the full committee, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Well, thank you, Mr. Chairman.
    And I join my colleagues on this committee in honoring and 
remembering Ray Baum, my dear friend and an incredible public 
servant and family man. We all miss him, his humor, his great 
commitment to public service, his intellect. And to quote Ray: 
``It's good to have you out.'' That was one of his phrases he 
would greet us with every day. And ``The fun never stops.'' And 
I think he would want us to keep that going. So I appreciate 
the words of my colleagues.
    This morning, we begin a series of oversight and budget-
related hearings across the jurisdiction of the Energy and 
Commerce Committee. It is essential that this side of the 
government, the legislative branch, and the American public 
knows what is going on in the Federal agencies. And so we 
appreciate the Deputy Administrator for being here. You are 
first up in this multiweek effort now that we will have before 
the committee. We are glad you are here and glad of the work 
you are doing at NHTSA.
    Safety on our roadways, as you have heard and you know, is 
something we all care deeply about. With a record number of 
traffic fatalities on the rise, increasing to more than 37,000 
in 2016, it remains critical to evaluate NHTSA's efforts to 
keep our Nation's roadways and vehicles safe.
    With a growing number of devices and services designed to 
keep Americans constantly occupied, distracted driving is a 
real issue. In Oregon, there were over 4,000 distracted driving 
crashes back in 2014 alone. My hunch is that has probably just 
gotten worse since then. Ninety-four percent we are told of 
those traffic-related crashes are due to human error. We have 
talked about the work that we did on a bipartisan basis with 
Mr. Pallone, Ms. Schakowsky, and others. A generation from now 
will look back, if our SELF DRIVE Act gets into law and 
collision avoidance gets into law, and point out these figures, 
and they will say: What a bunch of barbarians; you drove 
yourselves in? How did you text? How did you phone call?
    And so we need to move forward with our SELF DRIVE Act. We 
have done it in the House. We put a lot of work into that. I 
came to what I thought was really a solid piece of public 
policy and passed it I think unanimously in the House. And now 
we need to get it all the way down to the President's desk to 
have national standards and improve our roadways and give us 
safety.
    There are a couple of other issues dealing with recall you 
will hear about today, whether it is Takata airbags and where 
we stand on that, or just the recall issues overall. I would 
appreciate an update on the agency's ongoing efforts in the 
recall of Takata airbags.
    Next steps, lessons learned for the next stages of this 
massive, unprecedented, I would argue, recall. This recall 
would be ongoing through 2020 I am told. We need to make sure 
that consumers have all the information they need to get their 
airbags replaced as quickly and safely as possible. 
Safercar.gov has a search tool you can use if your car has any 
open recall. So safercar.gov.
    And looking at the recall issue on a broader scale, I am 
also very interested in hearing about efforts to improve the 
secondary market players' ability to identify and remove 
recalled parts from the supply chain. I recently met with some 
folks in Oregon who are very involved in this effort. They are 
very frustrated about how the current system works and believe 
there must be a simpler way where you can scan the VIN number 
and be told whether there are parts on this car that should not 
be put into the supply chain or, if they are, taken out. So I 
know you have had discussions about the ability for 
stakeholders to search multiple VINs at once or batch searches. 
So any updates you can provide the committee on NHTSA-led or 
industry-led efforts on this front would be greatly 
appreciated, because it is critical we continue to improve this 
recall process at every level of the supply chain.
    America's roadways are the backbone of our Nation, apart 
from being a way to get from point A to B, safely traveling for 
business, family vacation, whatever we do out there is critical 
to all of us. And so NHTSA plays an incredibly important role 
in this effort. And we look forward to working in partnership 
between the Congress and the administration to move forward 
with our SELF DRIVE Act and continue to improve roadway safety 
for our Nation's drivers.
    And so, Deputy Administrator King, thank you for being with 
us today.
    And, with that, Mr. Chairman, I yield back and confess that 
there is another hearing going on I need to give an opening 
statement for as well. And so I will be in and out. But thank 
you for holding this hearing and kicking off this effort.
    With that, I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Chairman Latta. This morning we begin a series 
of oversight and budget-related hearings across the 
jurisdiction of the Energy and Commerce committee. It is 
essential that we in Congress, and more importantly the 
American public, know what is going on at federal agencies. 
Today, we will hear from Deputy Administrator King about the 
National Highway Traffic Safety Administration's (NHTSA) 
priorities and safety initiatives.
    Safety on our roadways is a national imperative. With the 
number of traffic fatalities on the rise--increasing to more 
than 37,000 in 2016, it remains critical to evaluate NHTSA's 
efforts to keep our Nation's roadways and vehicles safe. With 
the growing number of devices and services designed to keep 
Americans constantly occupied, distracted driving has become a 
serious problem.
    In my home State of Oregon, there were over 4,000 
distracted driving crashes in 2014 alone. In total, ninety-four 
percent of traffic-related crashes are due to human error.
    We all have stories about our commutes to the office or 
around our district, and what people will do while also trying 
to drive. Technology, responsibly developed, has the potential 
to transform the driving operation and reduce risks from 
distraction and impairment.
    This subcommittee worked with a wide range of stakeholders, 
over many months, and ultimately the full committee reported 
the bipartisan SELF DRIVE Act--54-0. The House passed the bill 
a few weeks later without opposition. We did not let the chance 
to save lives and support American innovation pass us by, and I 
remain committed to moving this legislation to the President's 
desk this year. I would like to thank Chairman Latta, Ranking 
Member Schakowsky, Rep. Upton, and Rep. Dingell for their work 
on this important legislation.
    The SELF DRIVE Act will provide companies with greater 
flexibility to test and generate data for the development of 
self-driving cars and, importantly, clarifies NHTSA's role as 
the national safety regulator.
    Not only will these vehicles make our roadways safer, they 
also have the potential to improve mobility for the elderly and 
disabled and increase transportation access for rural and 
traditionally underserved communities.
    Turning to another issue that is impacting every district 
in the country--the opioid crisis. I look forward to hearing 
more about the recently announced Drugged Driving Initiative at 
NHTSA. Driving under the influence of prescription opioids and 
marijuana now causes more traffic fatalities than driving under 
the influence of alcohol.
    This is a prime example of an issue where federal 
leadership is valuable to bring together stakeholders, such as 
law enforcement and other community leaders, to find a way to 
protect people on our roads and combat the opioid crisis.
    While there are new opportunities on the agenda for NHTSA, 
the agency still faces many challenges. Recall completion 
rates, including the ongoing Takata recall, continue to be an 
area where we encourage improvement. The complexity of the 
Takata recall only seems to grow, and even this week there is 
another expansion of ``do not drive'' warnings.
    I would appreciate an update on the agency's ongoing 
efforts in the Takata recall, next steps, and lessons learned 
for the next stages of the recall. This recall will be ongoing 
through 2020, and we need to make sure that consumers have all 
the information they need to get their airbags replaced as 
quickly and safely as possible. SaferCar.gov has a search tool 
so you can see if your car has any open recalls.
    Looking at the recall issue on a broader scale, I am also 
interested hearing about efforts to improve secondary market 
players' ability to identify and remove recalled parts from the 
supply chain. There have been discussions about improving the 
ability for stakeholders to search multiple VINs at once, or 
batch searches. Any updates on NHTSA-lead or industry-lead 
efforts on this front would be greatly appreciated. It's 
critical we continue to improve the recall process.
    America's roadways are the backbone of our Nation. Far from 
just being a way to get from point A to point B, safely 
traveling, for business, family events, vacation, or simply 
running errands, is a necessity for families across the 
country. We must continue working together to encourage 
innovation, promote best practices, and be at the forefront of 
technological advances in the auto industry. Progress is 
critical to enhance vehicle and roadway safety for our Nation's 
drivers. I want to thank Deputy Administrator King again for 
being here today and I look forward to this important safety 
discussion.

    Mr. Latta. Thank you very much.
    The gentleman yields back. The chair now recognizes the 
gentleman from New Jersey, the ranking member of the full 
committee, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today marks the first time someone from the Trump 
administration is testifying before this subcommittee. I thank 
Deputy Administrator King for being here. This is important for 
oversight and accountability.
    It is particularly important for this authorizing committee 
to hear from NHTSA, the agency responsible for automobile 
safety. Last year, the House passed a bipartisan bill, written 
by this committee, that would ensure that, as autonomous 
vehicles are becoming more prevalent on our roads, that proper 
rules are in place. And specifically the House bill requires 
NHTSA to update and issue new standards to accommodate self-
driving cars. Unfortunately, that bill was passed with zero 
input from the administration on how or whether it could be 
implemented. And there are legitimate concerns that NHTSA is 
not prepared and is not keeping up with the quickly changing 
automotive industry. It is troubling that NHTSA does not have 
the resources, people, or expertise it needs to fulfill its 
mandate. It is also concerning that the administration clearly 
does not see this agency as a priority as we have yet to hear 
about a possible nomination for the role of NHTSA 
Administrator.
    Investigations by this committee have demonstrated how ill-
prepared NHTSA is today. During this committee's investigation 
of sudden intended acceleration, we learned that NHTSA did not 
have expertise in emerging technologies with little to no 
electrical or software engineers on staff.
    Then, during the ignition switch investigation, we found 
that NHTSA did not understand the link between the power mode 
status and the air bag system. What is more, at the same time 
as we are working to nudge NHTSA into the 21st century, the 
current administration is doubling down on a hands-off 
approach. In February of last year, the President issued an 
executive order requiring agencies to make recommendations to 
repeal, replace, or modify regulations. Then, in March, the 
President signaled that he was going to loosen fuel standards. 
And just last month, the Secretary of Transportation announced 
that she is working on a Federal automated vehicle policy 3.0 
to ``remove regulatory barriers for autonomous vehicles.'' And 
this announcement came just 4 months after Secretary Chao 
released version 2.O, which already loosened agency guidance.
    It is hard for me to understand how the administration is 
moving forward with an effort to get rid of important safety 
and environmental standards when NHTSA has not even finalized 
several important standards that became law in 2012 and 2015. 
And these include a rulemaking on rear seatbelt reminders and 
one to improve protection of children seated in car seats 
during side impacts. NHTSA should prioritize completing these 
important rules that are critical to the safety of passengers.
    Safety is also essential when it comes to autonomous 
vehicles. It is a great time to be in the automotive industry 
and to be participating in its technological evolution. The 
work on self-driving cars is fascinating and promising. Some 
vehicles on the road today can self-park and automatically 
brake. And while it is important that we hear from NHTSA about 
how it is getting the tools and skills necessary to deal with 
the ever-changing landscape, I want to make sure NHTSA is doing 
what it must to ensure safety now.
    In 2016, more than 37,000 people were killed on U.S. roads. 
That is an increase of 5.6 percent from 2015. And 2015 saw a 
7.2-percent increase over 2014 numbers. And this trend is 
troubling. Cars are part of our everyday lives. We depend on 
them to get us where we need to go. We count on NHTSA to ensure 
that they are safe and fuel-efficient. And I am pleased that 
Deputy Administrator King was brought on board at NHTSA in the 
fall. I urge the nomination of an Administrator so that the 
agency has the full leadership needed to deal with the many 
exciting but challenging tasks ahead at NHTSA.
    I look forward to continuing our discussion about how NHTSA 
can work harder to stay with the curve, if not ahead of it. I 
have about a minute left that I would yield a minute to 
Congresswoman Dingell, of course.
    Mrs. Dingell. Thank you, Mr. Pallone. I am grateful to you, 
Ranking Member.
    Deputy Administrator King, welcome to the committee, and it 
was great to see you in Detroit. I am just going to add 
comments to those that have been made by all of my colleagues 
about self-driving cars, which do have the promise to save 
lives, decrease congestion, and improve access to mobility 
services to seniors and the disabled if we get the policy 
right. As everybody is saying here, we need to get it right.
    But to be competitive, we have got to make sure we have a 
flexible framework that is going to keep up with the changing 
technology. And we have got to make sure we are staying at the 
forefront of innovation technology and that we are developing 
it here, not in China or India. At the same time, we need to 
make sure that safety is always number one. So thank you for 
being here. I look forward to working with you. We are not 
going to let this be built anyplace else. We need to work with 
you to make sure it is on the road and we are keeping everybody 
safe. Thank you.
    Mr. Latta. The gentlelady yields back.
    And again, we want to thank our witness for being with us 
today and taking time to testify before the subcommittee.
    Today's witness will have the opportunity to give a 5-
minute opening statement followed by a round of questions from 
the members. Our witness for today's hearing is Ms. Heidi King, 
the Deputy Administrator of the National Highway Traffic Safety 
Administration.
    Ms. King, you are recognized for 5 minutes for your opening 
statement.

STATEMENT OF HEIDI KING, DEPUTY ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Ms. King. Good morning, Chairman Latta, Ranking Member 
Schakowsky and Members of the subcommittee. I am truly honored 
to testify before you today. I am proud to have served the 
members of this committee through the 112th session of 
Congress, one of the highlights of my career.
    Before I begin, I would like to extend my sympathies to the 
committee and its members for the loss of Mr. Ray Baum. Ray was 
a wonderful colleague, an extraordinary individual. We mourn 
his passing and are very much--I am before you today inspired 
by his humor, his resilience, and his commitment to public 
service.
    Today, I am excited to tell you how NHTSA is acting its 
mission of saving lives, preventing injuries, and reducing 
economic costs. As the automotive transportation landscape is 
changing at a rapid pace, NHTSA is adopting and adapting our 
mission of execution to assure safety while remaining in step 
with these changing technologies, addressing new and emerging 
risks, and encouraging industry innovation. Safety is and 
safety remains the Department's top priority.
    As you mentioned, 37,461 lives were lost in 2016. Combined 
with an increase the prior year, these losses of life represent 
the largest proportionate increase in highway fatalities in my 
lifetime. The loss of life is, I believe we all agree, 
unacceptable. The rise in fatalities has occurred during a time 
of great change in the transportation landscape. More Americans 
are choosing to bicycle, to walk, to rideshare. Both our 
vehicles and our roadways, the way we interact with them are 
evolving at a rapid pace.
    As the average lifespan of motor vehicles increases, 
Americans are keeping older cars than ever before. We know 
newer cars are safer. The occupant of a newer car is much more 
likely to survive a crash than the occupant of an older car. 
This underscores why it is so incredibly important to ensure 
that all Americans have access to safe, affordable, and fuel-
efficient vehicles.
    Adapting to changes is how Americans travel. NHTSA will 
continue to employ risk-management best practices across all of 
our activities to identify, to assess, mitigate and 
continuously improve our management of highway safety risks. 
One of the emerging risks that NHTSA is fully committed to 
mitigating is the problem of drug-impaired driving. We know 
that many people switch between use of alcohol and illicit 
drugs or consume them together. And we need to consider both 
drugs and alcohol in addressing the serious problem of impaired 
driving on our roadways. To that end, NHTSA has announced an 
initiative to strengthen the strategies necessary to reduce 
drug-impaired driving on our Nation's roads. Next month, NHTSA 
will launch the national dialogue in a Call to Action, a 
national summit that will bring together experts and 
stakeholders to share best practices and identify near-term and 
longer term strategies to save lives.
    This effort is intended to build upon the previous work of 
the agency and will complement the work of our state and local 
partners. We are all in this together.
    I have heard from members of this subcommittee that you 
share our concern and you have offered support for this 
initiative. I am tremendously grateful for your partnership in 
this endeavor, and I look forward to working with you.
    In our changing landscape, in addition to changing 
preferences and an emerging drug-impaired driving risk on our 
roadways, NHTSA is committed to assuring safety while also 
encouraging advances in innovation and automation and in 
changing automation technology. Last September, Secretary 
Elaine L. Chao released A Vision for Safety 2.0, our new 
voluntary guidance to encourage safe introduction of emerging 
automated technologies on our roadways. A Vision for Safety 
paves the way for the safe testing and deployment of automated 
driving systems by encouraging best practices for 
manufacturers, and also for state and local governments, and by 
fostering open communication between the public, industry, and 
various stakeholders.
    Secretary Chao has also announced that we are at the 
Department of Transportation already working on an updated 
guidance, 3.0, which will be released later this year, and that 
will further facilitate the adoption of automated driving 
systems through a holistic and multimodal framework.
    We at NHTSA are excited by the benefits that automated 
technologies can bring to safety, mobility, and the efficiency 
of our transportation networks. And we look forward to hearing 
from the public, Members of Congress, and industry in the 
coming months on how we can further reduce barriers to 
accelerate the safe deployment of potentially lifesaving 
technologies.
    As the technologies change, consumer choices evolve and 
social trends continue. You have the commitment of each member 
of the NHTSA team that we will prioritize our mission in all 
that we do to save lives, to prevent injuries, and to reduce 
the economic cost of traffic crashes. Thank you, and I look 
forward to your questions.
    [The prepared statement of Ms. King follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Latta. Thank you very much for your testimony today.
    And, with that, we will move into our question-and-answer 
portion of the hearing. I will begin the questioning and 
recognize myself for 5 minutes.
    Ms. King, safety is NHTSA's number one priority. How do you 
see the agency fulfilling its mission with limited resources 
moving forward?
    Ms. King. Very good. Thank you for asking. Our resource 
question is addressed by the President's budget, which was 
issued on Monday. It can be described briefly as two-thirds 
grant programs and one-third divided between highway and 
vehicle safety. The two-thirds grant funding request represents 
our partnership with states and the fact that the highway 
safety is where the rubber hits the road, which is in our 
communities, in our states. The remaining one-third, divided 
between highway safety, behavioral, such as drug-impaired 
driving or driver awareness programs, and vehicle safety to 
allow us to continue to assess the engineering design and 
safety and defects components of our program.
    In addition, the budget represents a shift towards 
increasing focus on the emerging technologies, our engineers 
are hard at work to remain in step with the changing 
technologies. And we are very excited about the safety promise 
they bring.
    Mr. Latta. Thank you.
    With the self-driving vehicle technology, as you have 
heard, we brought through this committee--is a priority of not 
only the subcommittee but also the full committee, as you know 
or as you have heard. Throughout NHTSA's guidance on self-
driving technology, NHTSA has reaffirmed its role as the 
national safety regulator of vehicles. How important do you 
believe it is that NHTSA remain the safety regulator for 
current and future automotive technologies?
    Ms. King. It is, chairman, it is the law of the land. NHTSA 
is responsible for the design, construction, and performance of 
all motorized vehicles in the United States.
    Mr. Latta. Well, one of the things that we saw with the 
legislation is--when we are talking about preemption, and as a 
lot of states are out there trying to do their own thing, we 
believe is very, very important and that you believe that we 
have that one standard set forth. And so what would you say to 
all the states out there that are maybe right now either 
legislating or promulgating their own rules?
    Ms. King. We have had a very rich dialogue with the states. 
Each dialogue I have had with the states, we all understand 
that NHTSA is responsible for vehicle design, performance, and 
construction. The states will remain responsible for the safe 
operation of those vehicles on the roads and the licensing of 
drivers. The traditional division of responsibilities at the 
state and Federal level has continued and will continue under 
the existing law.
    Mr. Latta. Thank you. As we have talked about today and you 
have heard from individuals from this community, the opioid 
crisis is just that: it is a crisis or an epidemic across our 
country. We are now learning how many people are driving under 
the influence of not just alcohol but drugs. You mentioned 
NHTSA's drugged-driving initiative. Can you explain your goals 
for this program?
    Ms. King. Absolutely. The crisis is heartbreaking for those 
of us who have worked in public safety and have been with 
drivers at the time of an accident, some of whom are losing 
their lives. It is unacceptable that we have the continued loss 
of life and the proportionate increases recently.
    One of the points that has struck me since coming to NHTSA 
20 weeks ago is that the data is actually fairly scant. The 
crisis of drug use in the U.S. has come upon us so quickly, we 
do not have adequate nationally representative data sets. But 
we do have data sets in certain regions. We do understand that 
crisis that is upon us. The initial goal is to start using the 
expertise where people are starting to win, starting to solve 
the problem, and make sure, in the near term, best-practice 
sharing helps us save lives today.
    But that is not all the initiative is. I see the need for 
us to set a path toward what we need to accomplish in the 
middle and long term so that the Nation is on a path toward the 
creation of the data, the processes and the systems we need to 
combat drug-impaired driving as well as alcohol-impaired 
driving. The dialogue begins on March 15, and I look forward to 
having more information to share after hearing from our experts 
and stakeholders.
    Mr. Latta. Thank you.
    In my last 44 seconds, NHTSA issued another consumer safety 
advisory and Takata recall with increased ``do not drive'' 
warnings for certain Ford and Mazda models. Consumers should 
check the safercar.gov to see if their car is included in this 
recall.
    In my last 30 seconds here, could you provide us with an 
update on the Takata recall and what other steps consumers 
should take to protect themselves?
    Ms. King. Yes, absolutely. To remind consumers that most 
airbags safe lives, thousands of lives are saved each year, but 
there is a set of airbags that are dangerous. And in fact, the 
``do not drive'' order that was issued on Monday reflects that 
there is a set of airbags that can explode and hurt people. So 
we encourage people to, first of all, check the website--we 
would recommend www.nhtsa.gov--entering their VIN and 
understand whether their vehicle is one of the life-saving, one 
of the good airbags that we all keep operating in our vehicles, 
or one of the sets that needs to be replaced. I encourage 
people to reach out to their dealership for a free replacement. 
If subject to the ``do not drive'' order or the ``do not 
drive'' recall on Monday, that they do not drive, but in fact a 
tow truck will come pick up their car and fix it for them to 
make it safe again.
    Mr. Latta. Well, thank you very much.
    My time has expired. And I would like to at this time 
recognize the gentlelady from Illinois, the ranking member of 
the subcommittee, for 5 minutes.
    Ms. Schakowsky. Thank you so much.
    In September, the House passed, and we have been talking a 
lot about it, the SELF DRIVE Act to promote the safe deployment 
of self-driving cars. There was a GAO report last November that 
found that the Department of Transportation is actually not 
prepared to address the coming safety and infrastructure 
challenges from self-driving cars. You talked about something 
that is happening later this year, but all we have really seen 
so far are voluntary guidelines to industry. So when will NHTSA 
or DOT issue a comprehensive set of priorities for rules on 
autonomous vehicles and a detailed roadmap for implementation?
    Let me just point out that DOT said that such a plan would 
be premature. I disagree. The autonomous technology is already 
here. So when are we going to see priorities for rulemaking?
    Ms. King. Ranking Member Schakowsky, thank you for that 
question. I would quote Congressman Pallone in saying it is 
important to stay with the curve and not ahead of it. We feel 
very strongly that the technologies are still emerging. I would 
refer back to my experience as a research scientist at the old 
Bell Labs at Telcordia Technologies. We were, in the year 2000, 
thinking about the emergence of telecom, what will telephones 
be like when we have 3G and 4G on our phones? We made some 
predictions. Some of them were right; some of them were wrong. 
That gives me a humility about our ability not only to predict 
how the technology will evolve to contribute to safety but also 
how consumers will adopt it.
    The voluntary adaptive, flexible approach to NHTSA has 
chosen and the Department of Transportation is choosing for all 
modes of transportation recognizes the importance of allowing 
the technology to evolve to best meet the needs of the safety 
community and also of consumers. So I look forward to 
continuing to work with you. It is very important to all of us 
clearly that we not only maintain safe roadways, but we allow 
the technology to evolve to improve the safety on our roadways.
    Ms. Schakowsky. Actually, the quote was: I look forward to 
continuing our discussion about how NHTSA can work hard to stay 
with the curve, if not ahead of it.
    So things are happening. I want to be sure that we are not 
only looking forward. It sounds like you are saying we are.
    You also stated in your letter to the committee that NHTSA 
will continue to actively improve and advance safety here and 
now. So I have some here and now questions that look to me like 
NHTSA is not actually keeping up. It is years behind on a 
number of rulemaking, including some that were statutorily 
mandated. MAP-21 required a rule to better protect children and 
car seats during side-impact crashes. This rule is 2 years 
overdue. When will NHTSA issue the final rule?
    Ms. King. Ranking Member Schakowsky, we are completing 
research on that rulemaking now. I realize we are not moving at 
the speed that we would have liked to, but we believe that to 
protect our most vulnerable citizens--I am a mother myself--
that we need to get it right rather than fast, and that did 
require some research before promulgation.
    Ms. Schakowsky. Yes, but you know, it is 2 years overdue. I 
just want to make that point. We are talking about children.
    Ms. King. Yes, thank you.
    Ms. Schakowsky. And crashes.
    MAP-21 required NHTSA to write a rule on improving child-
restraint-anchorage systems by 2015. NHTSA issued a notice of 
proposed rulemaking in 2015, but there has been no further 
action. When will NHTSA finalize this rule?
    Ms. King. Once again, I actually don't know the status of 
that rule. I can check and get back to you on that. I will say 
that, again, the research is critical to our getting the rule 
right. Oftentimes, when a rule has been proposed, we receive 
new information in the public comment period that needs to be 
considered.
    Ms. Schakowsky. We are talking 2015.
    Ms. King. I understand.
    Ms. Schakowsky. The FAST Act directed a rule that would 
ensure consumers are notified of recalls electronically, in 
addition to by email. The final rule was due in 2016, but NHTSA 
has only issued an NPRM.
    Ms. King. That is right.
    Ms. Schakowsky. So far, also in 2016. So when will NHTSA 
finalize this rule?
    Ms. King. I am pleased to tell you that we do actually have 
now on the website at www.nhtsa.gov the opportunity for vehicle 
owners to enter a VIN and enter their email address and receive 
an alert digitally to changing recall information. So there is 
a functionality there. The rule has not been finalized, but I 
look forward to having that available for--I look forward to 
moving forward on that. But I will assure you that the website 
resources are there so we are able to advise consumers of 
changes in defect status on individual cars.
    Ms. Schakowsky. If they act first. They have to go to the 
website.
    Ms. King. That is right.
    Ms. Schakowsky. If I could ask one more. The FAST Act 
directed NHTSA to require manufacturers to retain vehicle 
safety records. That rule was due over a year ago. And when 
will NHTSA finalize that?
    Ms. King. If I am understanding the provision you are 
referring to, I believe that that would have completed already. 
It would have been wrapped up into one of two places, either in 
improvements to the Artemis system, our defects program, or it 
may have been in the rulemaking finalized on January 25th. But 
I would be happy to get that detail from your staff, and I will 
make sure that I am understanding your question fully.
    Ms. Schakowsky. That would be great. Thank you. I yield 
back.
    Mr. Latta. The gentlelady yields back.
    The chair now recognizes the vice chairman of the 
subcommittee, the gentleman from Illinois, for 5 minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, thanks for 
yielding and for holding the hearing. Thank you for being here 
today and your service and just even another additional realm 
of a long career of service, so thank you.
    I would like to add my voice to the many here who have 
talked about Ray. And I picture Ray still just recently on the 
floor, and he came up with some exciting news to tell me about 
something that had a happened. He always just lit up the room. 
So, to his family, our deepest sympathies.
    For NHTSA, we appreciate you being here. We appreciate Ms. 
King for taking the time out.
    I would like to discuss my amendment to the FAST Act 
requiring automobile manufacturers to provide original 
equipment defective parts data to the professional automotive 
recycling industry. Electronic sharing of defective part 
numbers and other identifiable information and recall notices 
with recyclers and others will improve safety and aid NHTSA in 
achieving a 100-percent recall completion rate.
    Every day, professional automotive recyclers sell over half 
a million OEM parts, which provide consumers and repair shops 
with safe and economical repair options. They critically need 
this information to ensure that level of safety. It has been 26 
months since this safety provision was enacted. Can you 
describe to me the status of implementation on this?
    Ms. King. Yes. We have done the work at NHTSA to assess 
whether or not our existing VIN look-up tool can be converted 
to a batch tool. I believe that is what you are referring to. 
We have found that the system does not adapt readily. I am 
happy to continue working with your staff on other ideas, but I 
have heard good news that many in industry have started to 
solve this problem. I have seen that there may be some other 
solutions coming not from NHTSA, as we all very much appreciate 
and respect the importance of the secondary market for auto 
parts and am eager also to make sure that parts and vehicles 
that are sold are safe and in compliance with any outstanding 
recalls.
    Mr. Kinzinger. Do you have a timeframe for getting this 
thing fully implemented?
    Ms. King. I do not have a timeframe for completing the 
work. As I mentioned, we did not see that our tool would adapt 
easily or adapt at all to a VIN look-up tool, a bulk VIN look-
up tool. But, again, I am under the impression--I have been 
told that there are some other solutions that are near ready 
that may beat NHTSA to the punch.
    Mr. Kinzinger. OK. Well, if you could just follow up with 
us, that would be great because I think that is an important 
provision that, if it is effectively implemented, it is 
critical to the safety of the driving public.
    Additionally, several automakers in past hearings have 
assured me and other members that they are going to work with 
the auto recyclers to produce an effective outcome to the 
situation, but I haven't heard anything of that yet. Will you 
consider, if there are further issues, having NHTSA host a 
high-level recall safety summit of affected stakeholders to 
more effectively address any of these outstanding issues if it 
is a problem?
    Ms. King. I absolutely welcome feedback from all 
stakeholders. This is clearly an issue I would like to hear 
more about. So I would welcome conversation, yes.
    Mr. Kinzinger. OK. And cybersecurity is very important to 
me, and it is something we focus on a lot. As we continue to 
move toward an increasingly connected world, we have to be 
mindful of cybersecurity and do what we can to address these 
concerns. As you may know, I introduced H.R. 3407, which was 
eventually rolled into the SELF DRIVE Act. The bill requires 
manufacturers to maintain a cybersecurity plan to identify an 
officer as the point of contact with responsibility for 
management of cybersecurity, a process for limiting access to 
automated driving systems, and a process for training on 
cybersecurity. Can you please walk me through NHTSA's approach 
to cybersecurity and how NHTSA will consider cybersecurity in 
its safety evaluations of vehicles moving forward?
    Ms. King. It is my great honor to do so. Cybersecurity is 
also a great interest of mine and a priority of ours at NHTSA. 
In 2016, NHTSA issued a guidance for auto manufacturers with 
respect to cybersecurity. And furthermore, cybersecurity is one 
of the 12 safety elements that is discussed for voluntary 
disclosure in A Vision for Safety 2.0, issued September of 
2017. I find myself also very excited about the Auto ISAC, the 
Information Sharing and Analysis Center, which is a group of 
not only auto manufacturers but also suppliers and 
cybersecurity experts who have convened a vigorous dialogue to 
understand how we can share best practices and get ahead of the 
risks before they manifest themselves in our vehicles. I 
attended and was honored to give a keynote at their inaugural 
meeting recently and look forward to seeing that conversation 
blossom.
    Mr. Kinzinger. I have another question, but in the interest 
of time, I won't ask it, but I will just finish by saying 
cybersecurity is essential. And, obviously, as we go forward in 
this amazingly interconnected world, there are some really good 
opportunities and some really bad things that can frighten you. 
So I appreciate you taking a serious look at that.
    And I yield back the remainder.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back the remainder of his time.
    The chair now recognizes the gentleman from New Jersey, the 
ranking member of the full committee, for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman.
    I wanted to continue on Ms. Schakowsky's line of 
questioning. I agree that NHTSA has been falling behind on its 
safety mission. And I also ask that you keep your answers short 
because I have a bunch of questions. They are not difficult, 
though.
    One area that has been falling behind is the national 911 
office housed at NHTSA and jointly run with the NTIA. Six years 
ago, Congress charged the 911 office with issuing $115 million 
in grants to help deploy the next generation 911. 
Unfortunately, the 911 office has yet to even finalize its 
grantmaking rules. So my question is, when can we expect the 
911 office to finalize the rules and actually award the grants?
    Ms. King. You will see a rulemaking coming forward soon 
this year. As a former 911 dispatcher, I share your sense of 
urgency. It is absolutely critical. Thank you for your support.
    Mr. Pallone. Thank you. So, when it comes to really 
deploying the next generation 911 across the country, we are 
going to need more money, and that is why I have cosponsored 
the Next Generation 911 Act of 2017 with Representatives Eshoo 
and Torres, which paves the way for Congress to fully fund next 
generation 911. If that bill becomes the law, will the 911 
office be prepared to administer such a larger grant program on 
schedule this time?
    Ms. King. I look forward to working with you and with your 
staff to better understand the bill and how we would implement 
it.
    Mr. Pallone. OK. So I guess you figure you haven't really 
studied it much so it is hard to answer, right?
    Ms. King. I am very excited in concept about improving our 
911 system.
    Mr. Pallone. OK. All right. NHTSA is also overdue to update 
the New Car Assessment Program, or NCAP. NCAP is an important 
tool for incentivizing manufacturers to produce safer vehicles 
and for ensuring consumers can make informed decisions when 
purchasing a car. In 2015, NHTSA announced plans to update NCAP 
with valuable new information on vehicles' crash avoidance 
technologies and their safety in crashes involving pedestrians, 
but these plans have been stalled for more than 2 years. So the 
question is, when will NHTSA finalize revisions to NCAP so that 
consumers have up-to-date safety information when shopping for 
cars?
    Ms. King. At NHTSA, we are all very pleased that the NCAP 
program has offered so much both to consumers and to auto 
manufacturers to identify safety features in cars. We did 
propose and take comment on changes. We received comments that 
raised various views that need to be taken into consideration 
before moving forward, but we look forward to moving forward 
soon taking into account all comments received on that 
proposal.
    Mr. Pallone. All right. I think NHTSA is overwhelmed, Ms. 
King. And yet President Trump's budget request proposes a drop 
in funding for NHTSA's operations in research from $179 million 
to $152 million. Do you agree that ensuring the safety of new 
and more complex technologies associated with autonomous 
vehicles places increased demands on NHTSA?
    Ms. King. We believe that the President's budget reflects 
the resources that we need to achieve our mission with 
responsible stewardship of Federal funds.
    Mr. Pallone. So you don't think that the proposed cuts to 
NHTSA's operations and research budget makes it more difficult 
to adequately address the safety of new technologies like self-
driving cars?
    Ms. King. I believe the cut you are referring to was from a 
one-time bump up that we very much appreciated and that we 
applied to improving one of our IT systems, the Artemis system 
used in the defects organization. So we very much appreciate 
those funds. That work has been launched, and we are already 
benefiting from it, and we thank Congress for that support. But 
we do believe that the President's budget does reflect the 
resources needed for us to succeed.
    Mr. Pallone. Well, all right. In fact, NHTSA's 2016 budget 
identified a critical need for more staffing, noting that the 
Office of Defect Investigations had fewer than 20 investigators 
for 250 million vehicles equipped with increasingly complex 
technologies. But your 2018 budget estimate actually proposes a 
cut to ODI's funding. Now some safety hazards may decrease with 
the introduction of self-driving cars, but I think the 
potential for defects always exists. So I am confused by the 
proposal to cut ODI's funding. How will you ensure that ODI has 
the resources it needs to go forward? And what are you doing to 
ensure that ODI defect investigators have the skills they need 
to assess new vehicle technology?
    Ms. King. Two pieces. Again, the President's budget does 
reflect the resources we believe that we need. We have, as I 
mentioned, system improvements we can benefit from. We are in 
the process of hiring and recruiting additional engineers to 
assist us in defects investigations, but we are, through our 
new, more effective processes, doing the work of not only 
responding to reviewing each defect report that is received at 
NHTSA, but prioritizing according to risk and acting 
accordingly. Our systems revised in recent years allow us to 
assess the volume of complaints or notifications we receive. We 
assess, we categorize by risk, and act and move forward, and 
that helps us act more efficiently.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back.
    The chair now recognizes the gentleman from Michigan for 5 
minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    It is hard not to say Heidi. Welcome back to the committee. 
It was nice to see you at the Detroit auto show last month. I 
don't know if you got to some of other ones or not, but we 
appreciate you all in your interaction and look forward to 
continuing a very constructive relationship on a whole host of 
issues.
    I would first note that, last month, the U.S. Justice 
Department issued a memorandum to all U.S. attorneys handling 
civil litigation matters instructing them not to use Federal 
agency guidelines documents as a substitute for Federal law or 
regs. This follows the approach laid out by this committee when 
we passed the FAST Act back in 2015. I want to just say I 
applaud the Justice Department for following that approach that 
we laid out in the FAST Act, and I think that it strikes a 
much-needed balance between responsible oversight as well as 
unnecessary outreach.
    Two quick questions for you. One is I know you are aware of 
what I have introduced, the CAFE, H.R. 4011, which provides 
some harmonization between the agencies. Is it--I don't know if 
the administration has taken a formal stand with the SAP, 
Statement of Administration Policy, on that bill. Probably not. 
But given the lack of harmonization between EPA and NHTSA's 
programs, it is possible for companies to be in compliance with 
one program yet get hit with a large fine by the other. So our 
bill attempts to correct that. Have you considered that issue 
in any way administratively to resolve this before we get to 
that deadline, the big one?
    Ms. King. Thank you very much, Chairman Upton.
    Yes, harmonization very important to all of us. We 
recognize the impact not only to manufacturers who are trying 
to comply with two different programs but also to the 
consumers, because, as we know, those costs borne by the 
manufacturers can influence what is available to and the 
pricing to the consumer. NHTSA is now working with the 
Environmental Protection Agency as we move forward on the CAFE 
rulemakings and streamlining and making sure harmonization is 
forefront is a part of that dialogue.
    Mr. Upton. Thank you.
    Where we are heading, autonomous vehicles. Again, you were 
in Detroit. I participated in a roundtable discussion with 
Chairman Latta there. It is the wave of the future. We are very 
excited for a whole host of reasons.
    One of the concerns that always pops up is the cyber 
protections, and not only on the monitors of the road for 
trucks and vehicles, but obviously just the applications--the 
normal applications of that vehicle as they proceed. What type 
of resources do you have to make sure that the proper 
safeguards are in place so that things don't go really off the 
road?
    Ms. King. The laws and the operations and the systems we 
have at NHTSA apply to all vehicles, including automated 
driving systems. So, during a time of technological change, and 
granted this is a technological change larger than we have seen 
before, still we are responsible design, construction, and 
performance in a safety context for all of the vehicles in the 
United States. So our continued, whether it be reporting of 
defects, whether it be our monitoring of the technological 
change, our investigation of incidents related to any vehicle, 
including automated driving systems, we are vigilante. We have 
all of our tools in place, and we look forward to watching the 
technology involve to improve safety.
    Mr. Upton. Do you feel like have you good cooperation with 
the industry themselves in terms of what they are proposing, 
what they have, and those tools that will be installed on those 
vehicles?
    Ms. King. We have the voluntary safety self-assessment--
there are two posted now it is manufacturer's website. And we 
are now creating a dashboard at NHTSA where we will link to the 
manufacturer's voluntary safety self-assessments. We are 
hearing, although other manufacturers have not yet published 
theirs, they are being produced and the opportunity to learn 
from one another and to have discussions around safety and 
incorporating safety into their design features is very much a 
part of our learning from one another so we step forward 
together. It also allows that dialogue with consumers and with 
state and local governments. That is absolutely critical. 
Again, this is where we need to stay together at the curve, not 
to get ahead of one another as the technology is still 
developing.
    Mr. Upton. And I would just ask you if you are aware of 
some shortcomings with legislative ideas that you need to get 
through, please, please work with us. This has been a good 
bipartisan effort for a lot of years, and we look forward to 
have that type of relationship with you and the agency.
    Thank you. I yield back.
    Mr. Latta. Thank you.
    The gentleman yields back.
    The chair now recognizes the gentlelady from Michigan for 5 
minutes.
    Mrs. Dingell. Thank you, Mr. Chairman, for yielding and for 
holding this important hearing.
    I am going to build on what my other colleagues have been 
talking about on the SELF DRIVE Act. When the committee came 
together in a bipartisan manner, and I think we are all very 
proud of the fact that it was unanimous, that we passed it out 
of this committee, it built on many of the ideas that DOT had 
laid out in the FAVP. We took the safety assessment letter and 
made it mandatory. We took the Department's recommendation and 
enhanced the existing exemptions process so we could build the 
interim pathway to market for AVs while the new Federal motor 
vehicles safety standards are being written, but they need to 
be written, to make an editorial comment. And for the first 
time, we required manufacturers to submit plans to NHTSA for 
how they are addressing the critical issues of data security, 
privacy, and cybersecurity.
    But, Acting Administrator, I think what you are hearing 
today is unease on behalf of everybody, because we want to stay 
at the forefront of innovation and technology, and we also need 
to make sure that the consumer is safe at all times. You say 
you have got the tools, but we are not sure you have got the 
resources for the tools so that we are moving fast enough or we 
are doing what we need to do. Can you comment on the SELF DRIVE 
Act and how it complements existing DOT policy, NHTSA 
authority, and why you are going to assure us and, more 
importantly, the consumer that they are going to be safe, and 
you have got what you have got to do.
    Ms. King. Yes. I am very happy to do so, very excited about 
the fact that we have echoed some of the similar ideas, the 
safety self-assessment, for example, being critical, not only 
to allow for the disclosure of the information, because as a 
good risk-management best practice, a safety self-assessment 
allows each of the manufacturers, each of us, as I will say 
state, local government, direct consumer, to consider safety 
and get smarter. So absolutely we love that, we love the fact 
that the expanded exceptions allows for the safe testing of 
vehicles because we won't know if vehicles are safe unless we 
have testing so there are fantastic provisions in the bill that 
we look forward to continuing to work together on. We are 
excited about our shared mission of assuring safety while 
technology evolves--while we assure safety in step with 
technology. Again, the current authorities of NHTSA with 
respect to design, construction, and performance, we are on 
duty. We continue to follow closely the trends and the changes, 
both in the technology in what we are seeing on our roadways 
and the testing environment, and we look forward to working 
together.
    Mrs. Dingell. Thank you. We all have so many questions. It 
is hard here in this 5 minutes, so I am going to move to the 
midterm review because I think my colleague from Michigan 
raised a subject that is very important. In order for our 
companies to make the investments they need to realize the 
benefits on AVs, we need to make sure this industry stays 
healthy, and fuel economy plays a big role in this. Strong fuel 
economy standards give the industry the certainty that they 
need while continuing to drive innovation that saves consumers 
money at the pump. Right now, we are entering a critical phase 
of the midterm review. I want to urge you, Deputy Administrator 
King, Deputy Administrator King, to keep all stakeholders at 
the table in a productive manner as we go through this so we 
can achieve a negotiated solution that maintains one national 
program that all my colleagues at this table can support.
    So I am going to beg you do that. And could you comment on 
that a little? And how do you feel about post-2025 standards?
    Ms. King. Thank you for asking. It is very important to 
me----
    Mrs. Dingell. Just----
    Ms. King. That we hear from and keep all stakeholders in 
the dialogue. The CAFE standards, the greenhouse gas standards 
at EPA, our rulemaking that we are developing jointly, it is 
very important to all of us, not to only manufacturers and 
consumers but to the communities in which our vehicles operate. 
Very much encourage all stakeholders to have their views heard. 
We look forward to an open and vigorous public comment period 
in particular. As you know, the rulemaking can be very complex. 
There is a great deal of analysis, engineering and economic, 
that is completed for that rulemaking under the applicable 
executive orders. We will continue, as NHTSA has always done, 
to be committed to a transparent process where that information 
is all publicly available, where anyone who would like to 
contribute can review and submit their thoughts on what they 
think can be done or should be done differently. It is very 
important for us to get it right.
    Mrs. Dingell. Any comment on post-2025 standards in the 16 
seconds left?
    Ms. King. Thank you.
    Under the laws applicable to NHTSA, under EPCA, we are 
authorized to set standards for 5 years at a time. So we must 
under the law set standards for 5-year increments.
    Mrs. Dingell. Thank you.
    Ms. King. Thank you.
    Mr. Latta. Thank you. The gentlelady yields back.
    The chair now recognizes the gentleman from New Jersey for 
5 minutes.
    Mr. Lance. Thank you, Mr. Chairman.
    Good morning to you.
    I was pleased to hear your mention of NHTSA's commitment to 
mitigating drugged-impaired driving. New Jersey, which I 
represent, is considering legalizing recreational marijuana. 
Can you discuss any trends that you have seen among traffic 
accidents in states that have legalized marijuana for 
recreational use?
    Ms. King. Congressman Lance, thank you for that question.
    We don't have strong, robust nationwide data yet, but I can 
share with you the nature of conversations I have had with some 
jurisdictions. They have already seen, prior to legalization of 
recreational use, increasing levels of THC in the blood of some 
of their drivers. We hope to see more of that information 
shared in our summit on March 15.
    At NHTSA we are very concerned because some of the 
evidence, which has been sent to Congress in our report to 
Congress on marijuana-impaired driving in June of last year, 
shows us that THC can lead to impairment, such as we see with 
alcohol.
    Many people, we have seen evidence, are using both THC 
products or marijuana and alcohol, making it more difficult for 
law enforcement to detect and discern which substance they are 
using, or has been used, and how they should prosecute.
    So we have many challenges ahead of us. We are very much 
committed not only to short-term, but to long-term strategies 
to combat the problem.
    Mr. Lance. Are there tests that can determine if someone is 
under the influence of marijuana, similar to how the 
breathalyzer is used to detect impairment with alcohol?
    Ms. King. The science is evolving. While I have seen 
several tests proposed, each test has its own strengths and 
weaknesses. And because the nature of the substance is 
different than alcohol, I will say, we have not evolved yet to 
the point where we have a certainty in the testing that we do 
with alcohol. But we hope to stimulate further research as part 
of our initiative to address drugged-driving.
    Mr. Lance. Would NHTSA be the Federal agency that would 
bring to the Nation's attention some sort of test that would be 
dispositive regarding marijuana?
    Ms. King. We would like to help, but of course there are 
many Federal and state agencies that are involved in this 
journey of discovery. We are working with toxicologists and 
with other scientists at other Federal agencies, but also at 
the state level. Again, some of the states have programs that 
have some learnings to share with us.
    So this is something where none of us are going to solve 
the problem alone, we are going to work together, both in the 
science community and in the public policy community.
    Mr. Lance. Do the states have better tests in this regard, 
several of the states?
    Ms. King. Well, for roadside, I don't know that that is the 
case, but it is individual laboratories where I have met with 
scientists who are refining the protocols for testing blood 
levels.
    So science is developed not in one place, but across a 
committed community. And, again, that is why we are bringing 
everyone together, the experts, to share information with one 
another so we can identify best practices and gaps and move 
forward productively.
    Mr. Lance. Would it be your agency that would take the lead 
in advising Congress what the potential increase in accidents, 
what that potential increase is in the various states that have 
attempted to legalize recreational marijuana?
    Ms. King. We have information that could partially look at 
the sources of the increase in the states, but because we don't 
have a nationwide system for collecting that information, it 
would be conjecture at this point. But I intend to set as the 
goal a nationwide collection of information that could inform 
that.
    Mr. Lance. Thank you. I look forward to continuing to work 
with you on this issue, as the Governor of New Jersey and our 
state legislature together debate the legalization of 
recreational the marijuana. I am opposed to such legalization 
of recreational use.
    Given the unprecedented scope and complexity of the Takata 
recall, can you please provide the committee with some of the 
lessons learned and how we might improve completion rates in 
future recalls?
    Ms. King. Absolutely. I would like to refer to the monitor 
report that was issued--and it is posted on our website--this 
past November. The independent monitor at Takata has completed, 
together with NHTSA, research to understand what is working and 
what is not.
    Consumer response, consumer awareness and action is part of 
the puzzle here. And we learned from the monitor that consumers 
hear the word ``recall'' or they hear the word ``defect'' and 
they don't understand the sense of urgency.
    So one of the lessons learned is that not only reaching the 
consumers, but using language to help them understand the 
urgency of this recall is critical.
    Mr. Lance. Thank you. And good luck to you in your 
important responsibilities.
    And I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentlelady from California for 
5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    Ms. King, thank you for being here.
    Now, as we all know, NHTSA's fuel economy standards for 
model years 2022 to 2025 were originally set in 2012. In July 
2016, NHTSA and EPA released a joint technical report finding 
that the standards in 2012 remain appropriate and that 
compliance would be easier and less costly to achieve than 
originally anticipated using a wide range of existing 
technologies.
    In other words, there is clear data-driven support for 
maintaining existing standards and even making them more 
stringent.
    Now, my time is limited and I have lots of questions, so I 
would appreciate it if you would stick to brief yes-or-no 
responses, a la John Dingell.
    Are you still planning to release a proposed rule by March 
30 to finalize the 2022 through 2025 standards?
    Ms. King. I would like to answer yes or no, but if I could 
clarify, we will propose, not finalize, but as required by law, 
we will propose, and yes, March 30.
    Ms. Matsui. Yes. OK. Given the findings of the joint NHTSA 
and EPA technical report, will the proposed rule set out fuel 
economy standards that are at least as stringent as those 
promulgated in 2012?
    Ms. King. We would be able to announce that at the 
proposal. At this time we are engaged in the analysis----
    Ms. Matsui. So you don't know whether it is yes or no right 
now.
    Ms. King. Yes.
    Ms. Matsui. Is that correct?
    Ms. King. That is correct.
    Ms. Matsui. It has been reported that the rule may also 
revisit the fuel economy standard for model year 2021, but your 
correspondence to the committee dated January 9 states that 
your proposed standard is for light vehicles model year 2022 
through 2025. Yes or no, will 2021 be included?
    Ms. King. I wouldn't be able to address the rulemaking in 
progress at this time, and I am afraid I haven't seen that 
report.
    Ms. Matsui. OK. You haven't? Oh, OK. We will send it to 
you.
    Are you changing the model NHTSA uses to calculate fuel 
efficiency?
    Ms. King. NHTSA always strives to keep its modeling updated 
and current, including the inputs and the data and improving 
econometric methods.
    Ms. Matsui. OK. Some have claimed that adjustments to the 
2022 to 2025 standards are needed because consumers are buying 
larger vehicles, like SUVs and light trucks, rather than 
compact cars and electric vehicles.
    Again, yes-or-no responses, please. Aren't fuel economy 
standards based on the size or footprint of the vehicle sold? 
So a light truck does not need to achieve the same miles per 
gallon as a compact car, correct?
    Ms. King. The fleet-wide average does include consideration 
of footprints.
    Ms. Matsui. Doesn't that mean that the exact mix of trucks 
and smaller cars that a manufacturer already sells is already 
factored in? You said yes to that, right?
    Ms. King. Manufacturers produce to meet consumer demand for 
different types of vehicles for different purposes.
    Ms. Matsui. Fleet-wide target. So couldn't a company meet 
its fleet-wide target selling only SUVs, as long as they meet 
the fuel economy standard for the SUV footprint? Yes or no?
    Ms. King. I would have to think about the math, because 
they need to meet a fleet-wide average.
    Ms. Matsui. So you are not sure right now?
    Ms. King. I would have to think about that. I have not seen 
a manufacturer choose to do so.
    Ms. Matsui. OK. We will check on that, too.
    Let me just say this. It is very important that NHTSA 
continue to engage with the autonomous vehicle innovation that 
is taking place across the country. As part of NHTSA's second 
AV guidance, you put forward a template for AV developers to 
commit a safety self-assessment. How many safety self-
assessments has NHTSA received?
    Ms. King. We don't ask manufacturers to send them to us. We 
ask them to disclose them.
    Ms. Matsui. So you don't have any idea of numbers at all?
    Ms. King. I am aware of two, but we do not ask them to be 
submitted. They are not a document submitted to NHTSA. We ask 
that they be made public. And we are aware of two, which we 
have linked on our website. We have created a dashboard so that 
we can make it easier for----
    Ms. Matsui. OK. So you are only aware of two right now?
    Ms. King. That is right.
    Ms. Matsui. What has NHTSA learned? Have you learned 
anything from these assessments at all, from the two?
    Ms. King. I have, actually. I learned that it is very 
important for us all to be in dialogue on this issue. I think 
each of the manufacturers is considering safety and would like 
to engage with others in learning from one another. So I see 
that we are in this journey together.
    Ms. Matsui. Good. OK. I understand that this intention is 
to increase collaboration and build the public trust for AVs, 
which I strongly support. And I really believe that, as most 
people here on the committee believe, which is really 
important, that safety is number one.
    The AV situation is getting so much, now, attention that I 
think there is a sense out there that the thought is that it 
may be safer than we think it is. So I really feel strongly 
that we should keep emphasizing safety and any time we talk 
about AVs safety is emphasized.
    And I really think that if NHTSA has only received two as 
far as the assessments that we are talking about, as far as 
building public trust, I feel that we need to encourage more, I 
think, collaboration as far as conversation. I think we need to 
have more public comment on this and a sense of understanding 
where this all is.
    So anyway, I truly believe in this, in the midterm 
evaluation also, when we are talking about autonomous vehicles, 
we really need vigorous conversation and debate. So thank you 
very much for being here.
    Ms. King. Thank you.
    Mr. Latta. Thank you very much. The gentlelady yields back.
    The chair now recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. Thank you.
    Welcome back to the committee. I appreciate it very much. 
Actually, Mr. Lance, my friend from New Jersey, hit a lot of 
the issues that I was going to talk about, and I look forward 
to the results of your roundtable and meeting on drugged 
driving.
    As the move to recreational use of marijuana is moving down 
the road, there are a lot of serious issues, and hopefully we 
can bring it to the attention of people. It is not just as 
simple as a lot of people want to make it out to be. There are 
a lot of issues that need to be addressed.
    But I will go to another interesting topic, tire wear, 
since you have already addressed that. So in the next 12 months 
what progress does the Department anticipate toward 
implementing the tire performance standards for fuel efficiency 
and wet traction?
    Ms. King. Very good. We have research underway, and so I 
expect we will have something, hopefully soon, because we are 
in fact reviewing some of that research now. But we have 
several initiatives related to tires that are underway at 
NHTSA.
    Mr. Guthrie. Also, I believe you are launching into the 
web-based tire recall search tool. Do you know when that should 
be launched?
    Ms. King. I would be happy to provide more information. I 
will say, it is not an area in which I have the level of detail 
I would like to provide you. I would like to make sure we get 
correct information to you.
    Mr. Guthrie. OK. Thanks.
    Also, in September of last year NHTSA released new guidance 
for self-driving vehicles. And a very proud and great 
Kentuckian, Secretary Chao, announced the agency is working on 
a version 3.0.
    Can you explain the approach 3.0 will take and version 2.0 
will interplay with the new guidance? So let me get back. Can 
you please explain the approach 3.0 will take in version 2.0 
interplay with the new guidance?
    Ms. King. I am very excited to explain that.
    Version 2.0 focused very much on automated driving systems 
in consumer cars, in cars, whereas 3.0 will be multimodal.
    I will tell you what 3.0 will not do. It will not change, 
for example, the voluntary safety self-assessments that 
Congresswoman Matsui was just discussing. We still expect 
manufacturers to provide voluntary safety self-assessments as 
described in 2.0. 3.0 will expand the discussion to include 
other modes of transportation.
    Mr. Guthrie. Thank you.
    Can you please highlight significant dates moving forward 
with respect to the Takata recall that we and our constituents 
should be aware of? And when do you expect the recall to be 
complete?
    Ms. King. We have posted on our website at NHTSA the dates 
when various ages or various risk categories of airbags will be 
recalled. Right now, the date that is top of mind is now. 
Because of the urgency of the recall announced on Monday with 
certain 2006 Ford vehicles, I would urge every consumer to 
check our website and know whether they have one of most 
airbags, safe, save thousands of lives every year, or the ones 
that are not safe.
    I would like consumers to check, and if they are not 
getting the information they need from their dealership, to 
contact NHTSA immediately. The sense of urgency cannot be 
overstated with respect to vehicles covered by the Do Not Drive 
order. Any assistance in communicating that with your 
constituents would be greatly appreciated.
    Mr. Guthrie. Thank you very much.
    I have a minute left, and maybe this is something that is 
not your expertise, but I was wondering, as Mr. Lance was 
talking, my understanding is that when--back to drugged-
driving--that if somebody is pulled over and they are tested 
and they have the blood alcohol content that makes--they can 
prosecute, that is not tested for drugs, because you don't need 
both for impaired driving.
    That might be something in your roundtable to discuss just 
for the information, understand that if somebody is impaired, 
they are impaired, but it would be nice to know how much of the 
drug is in the system as well.
    And I guess the question I was going to ask you, you might 
not know, it might not be your expertise, but if someone is 
drugged-driving, there is no alcohol, they are drugged-driving, 
they are impaired, so somebody gets pulled over for crossing a 
line or whatever like would typically tip off an officer, would 
they fail a field sobriety test?
    I know most of it is breathalyzers and blood that goes to 
court, but you get there first by not being able to touch your 
nose or standing on one foot or whatever, the stuff that says 
you are just not capable of driving. Does somebody that is 
drugged-driving on marijuana, would they fail--not opioids, but 
marijuana--fail that?
    Ms. King. I am drawing now upon my little known background. 
I was in law enforcement 30 years ago when I was in much better 
physical shape than I am today.
    We have at the state level different laws in different 
parts of the county, and so how the laws are categorized is 
different by state. I was a law enforcement officer in 
California, and I have spoken with people there and can 
describe that a little bit.
    Impaired driving is illegal. Impaired driving is not only a 
risk to health and safety, but it is illegal in most of the 
country.
    When an officer identifies an impaired driver, an officer 
is very experienced and well-trained in the fairly familiar 
pattern of identifying an alcohol-impaired driver.
    We have a number of tools to train and prepare officers to 
assess for drug impairment, but there are so many different 
drugs. Sometimes people are taking drugs together or with 
alcohol, which then confuses the symptoms and makes it harder 
for the officer to identify what exactly he is dealing with.
    So, yes, I think every officer in the United States is very 
likely to be trained rigorously in alcohol-impaired driving. We 
have the ARIDE program and DRE programs that provide that 
expertise with respect to drug-impairment identification. It is 
not universal across the Nation, however.
    In addition to identifying the signs and symptoms of 
impairment in a driver, we also have the challenge of 
prosecuting. So the officers collecting information at a 
vehicle stop that he will use--he or she, in my case--that I 
would use in providing information to prosecute, the critical 
step in how to use that information in prosecuting when we 
don't have the legal framework, maybe we don't have the field 
test that we have for alcohol, those are all things that don't 
exist yet in a rigorous way across the country.
    But the good news, there are certain jurisdictions that 
have innovated. The County of Orange in California has combined 
forces, law enforcement and the district attorney's office and 
the laboratories, to figure out how they can make the pieces 
work together and develop best practices. They are now training 
other parts of the state, and hopefully soon the country.
    So we aren't as good at it as we are with alcohol, but I 
know we can get better quickly, and we will learn a lot, and we 
can conquer this problem together.
    Mr. Guthrie. Well, thank you. Thank you. And I am here to 
support what you guys are trying to do.
    Thank you. I yield back.
    Mr. Latta. The gentleman's time has now expired.
    The chair now recognizes the gentleman from California for 
5 minutes.
    Mr. Cardenas. Thank you, Chairman Latta, and I would also 
like to thank Ranking Member Schakowsky for having this 
National Highway Traffic Safety Administration hearing. I 
appreciate this opportunity.
    And thank you, Deputy Administrator King, for coming today 
and answering our questions. I am happy to be addressing a 
fellow Californian.
    And could you help us clarify, what is the status of the 
Department getting a new administrator? How is that coming 
along? Can you update us?
    Ms. King. The President has not yet identified a nominee, 
but I look forward to learning also who my new boss will be. 
Meanwhile, the Department does have a strong leader, and that 
leader is here before you today, ready for your questions.
    Mr. Cardenas. OK. Now, your status right now is Deputy 
Administrator. At one time you were acting administrator?
    Ms. King. That is right. Under the Vacancies Act, the title 
acting administrator is only allowed under for a certain period 
of time. However, as Deputy Administrator, I do fill all of the 
functions of the administrator. So I am essentially acting as 
acting, although the title is not applied under the Vacancies 
Act.
    Mr. Cardenas. And how long has the Department been without 
an administrator?
    Ms. King. There has not been an administrator nominated in 
the administration. I have been there since September 25. I am 
halfway through my 20th week.
    Mr. Cardenas. OK. So it was January 21 of 2017, or when was 
it that the actual administrator position was vacant?
    Ms. King. That is right, January of last year.
    Mr. Cardenas. OK.
    Ms. King. We have had in place acting as deputy our 
executive director, who is an outstanding professional with 
years of experience in transportation, and an outstanding, 
strong team, and of course the leadership of the Department of 
Transportation.
    Mr. Cardenas. Now, having a permanent administrator would 
be helpful to the Department as a whole, right? Hopefully we 
will see that soon?
    Ms. King. I look forward to hearing the President's 
nomination. I understand that there is a great deal of work 
ahead of us.
    But there is a team that is strong. I believe I am a strong 
leader. And I look forward to working with you.
    So hopefully neither you nor the public will feel any 
difference whether or not it is myself acting as administrator 
or whether it is myself serving my new boss when the President 
identifies the nominee and that nominee is confirmed.
    Mr. Cardenas. Yes, I certainly respect that that is within 
the full purview of the President. However, we do have 
tremendous responsibilities--I will outline some of them right 
now--within that Department.
    There is no question that NHTSA has a tremendous 
opportunity to shape the safe implementation of highly 
autonomous vehicles in the next few years. The United States is 
on the brink of an important change in how we own and interact 
with vehicles.
    As stewards of traffic safety, NHTSA has the responsibility 
to work with Congress to make sure that these next steps are 
taken in a safe manner. But any guidance or regulation we 
develop of the Federal level inevitably impacts state and local 
regulations, so we must make sure that what we do in 
Washington, D.C., is responsive to what our officials back home 
are going to have to deal with at the state and local level.
    I used to be in the California State Assembly and also on 
the L.A. City Council, so I have experienced firsthand what it 
is like when Federal policy works well and when it does not.
    During the development of the SELF DRIVE Act that was 
passed in the House last year, I was particularly interested in 
making sure that the legislation ensured collaboration with our 
counterparts at the state and local level. The bill includes 
legislation I introduced to form a Highly Automated Vehicle 
Advisory Council at NHTSA with a diverse group of members, 
including from state and local authorities.
    The bill passed the House and we hope that the Senate will 
take it up soon. But in the meantime, what is NHTSA doing to 
make sure that states and localities are involved in the 
development of autonomous vehicle guidance and rulemaking?
    Ms. King. We are communicating a lot. I am very much 
honored to work with my state partners. I agree with you, it is 
critical that we work together and learn from one another and 
that we not be developing things in a vacuum without 
consultation.
    As I had mentioned earlier, two-thirds of our budget is in 
fact grant moneys with states, both because of our behavioral 
programs together, but also because of the challenges that we 
confront together, not only with drugged-driving, but with 
emerging technologies.
    We are at all levels in frequent discussion with the 
states. Myself, also being someone from the field, also from 
the West, which can sometimes feel distant from Washington, 
D.C., I know those flights feel long some days. It is a 
constant dialogue and we are very sensitive to the views of our 
state partners.
    Mr. Cardenas. Ms. King, what keeps you from being a 
candidate to be the permanent administrator?
    Ms. King. That is very kind of you to ask. The President 
will make his choice, and I will defer to his choice. I look 
forward to having----
    Mr. Cardenas. But on a strict basis, there is no 
qualification scenario that would prevent you from being 
nominated, correct?
    Ms. King. I do not----
    Mr. Cardenas. Now, just for those watching in the White 
House, I don't want them to think that you are soliciting that 
position.
    Mr. Latta. He is trying to be very diplomatic.
    Mr. Cardenas. I know. But technically speaking, there is 
nothing right now that would preclude you from being a nominee 
on a technical basis, correct?
    Ms. King. I certainly don't believe there is anything as 
stringent as the peace officer standards and training of 
jumping over a 6-foot wall, as I did many years ago in the 
State of California to become a law enforcement officer.
    But, honestly, Congressman Cardenas, that is not a question 
that I have addressed because it is not my area of expertise 
nor my responsibility. But I would be happy to get back to you 
with more detail on that.
    Mr. Cardenas. Nor is it a comfortable place to be. I didn't 
mean to embarrass you.
    Ms. King. Oh, no, no, no.
    Mr. Cardenas. But I just wanted to make sure that there was 
nothing that precluded that from happening.
    Thank you, Mr. Chairman.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    And the chair now recognizes the gentleman from West 
Virginia for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And thank you, Administrator, for being here today.
    I heard earlier you say several times that you didn't have 
enough data to answer some of the questions, particularly about 
drug-related accidents.
    And now that it has been revealed that some, what was the 
statistic, 43 percent of fatal accidents in 2015 were drug-
related, as compared to 37 percent alcohol-related, my 
curiosity is how that relates--we may not have the answer here, 
as you are saying.
    What is happening in Europe and elsewhere around the world? 
Are they finding similar to that? Because the reports I have 
gotten from Europe is that alcohol is still by far the 
prevalent cause of accidents, not drugs. What is bringing that 
about in the United States?
    Ms. King. There are two parts to that question, if I 
understood your question, Congressman McKinley. One of them is 
what we are seeing in Europe and one of them is what we are 
seeing here? Did I understand correctly?
    Mr. McKinley. Yes. What can we learn from Europe? That 
Europe has been able to get control so that its drug is not the 
drug-related preponderant amount of accidents caused by drugs, 
but ours has been logarithmically increasing. What are they 
doing right or we doing wrong?
    Ms. King. There are many dimensions to that. It is, I will 
say, not an area of formal publication at NHTSA, but I can 
speak to my own experience and knowledge, which is that, first 
of all, the use of drugs, in particular illicit drugs, tends to 
be regional, even within the United States.
    And the second is that the use of transportation may also 
be very regional. In Europe we often see communities that have 
a different relationship with their infrastructure. They may be 
more walkable, more drivable, there are lower rates of car 
ownership and higher rates of public transit use. So there may 
be more alternatives available.
    Mr. McKinley. I would like to pursue that further with you. 
But also in your role that you have been with the Department, 
and now in your role as the deputy, what keeps you up at night? 
What do you think is the biggest problem you are facing for the 
administration?
    Ms. King. The thing that keeps me up at night is how to 
help consumers understand the risks of the airbags that are on 
the Do Not Drive recall issued on Monday. It is very important 
that consumers understand whether or not they have a safe, 
lifesaving airbag in their car. Again, the lifesaving airbags 
save thousands of lives per year, but there are some few that 
can injure and they can maim and they can kill.
    And we have consumers who may be unaware. The fact that 
many of these vehicles are older means that the consumers may 
not be as likely to have a relationship with their dealership 
or with the auto manufacturer.
    We have been working with the manufacturers in their 
outreach to the consumers, and we are finding different ways to 
reach consumers. But what keeps me up at night is that there 
may be people who don't know, they are not understanding the 
urgency of the Do Not Drive recall.
    Mr. McKinley. Thank you.
    The final question is, I think it was your answer back to 
Mr. Guthrie, I think it opened some curiosity on my part, which 
is the mechanics. It is one thing when someone is driving the 
car down the road and they could be tested for alcohol when 
they are impaired, they are weaving.
    If they are weaving and they are drug-related and pulled 
over, the only test I heard was a blood test. We are certainly 
not going to do a blood test on someone on the highway.
    What is the mechanical part? An officer is assuming someone 
is impaired and he pulls them over but there is no testing 
device. Do they allow them to continue? Do they give them a 
warning? Or do they stop them if they feel in their heart they 
are impaired because of drugs? What happens mechanically?
    Ms. King. I believe that may differ regionally, depending 
on the officer's training. I can assure you that at NHTSA we 
have research underway in our research program in our 
behavioral division----
    Mr. McKinley. What is happening now? The drugs are out 
there. We are having problems right now.
    Ms. King. I understand.
    Mr. McKinley. Are they releasing them to continue driving?
    Ms. King. Some forms of impairment are very similar to 
alcohol, even though they may have other causes, and that 
certainly would be captured by the standard field sobriety 
tests that officers are using today.
    Officers collect evidence of impairment and take that 
information. The field sobriety tests that are used today would 
identify signs of impairment. Although designed for alcohol, 
they could detect other forms of impairment.
    But we are working on research to identify field sobriety 
tests that can be used for other substances to determine 
whether there is even a difference. It is an emerging area.
    Mr. McKinley. I hear you. I am dealing with the today, the 
now. I am just curious about whether it is going to hold up in 
court if we don't have any background on this, how that is 
going to hold up a year from now.
    Ms. King. I think I am going to have some good news for 
you, because my conversations with the geographies that are 
getting ahead of this, they are some great successes. And I am 
looking forward to learning more about them and making sure 
that we all can learn from them and adopt their best practices.
    Mr. McKinley. Thank you very much. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman.
    And welcome, Deputy Administrator.
    Following up on my colleague and good friend from West 
Virginia, what keeps me up at night is that I get these cards 
about that I need to take them into my dealer and nobody can 
repair them. And so what are we going to do? Is it some reason, 
that maybe the dealers are not getting reimbursed, or is it 
just that they don't have the--to be able to fix these airbags 
that are in our current vehicles?
    Ms. King. When a car owner is asked to come and have the 
replacement, there should be adequate supply. There should be 
adequate supply of airbags to replace any unsafe airbags.
    I would like anyone who does not hear from their dealership 
that they can get the active recall remediated immediately to 
contact NHTSA at 888-327-4236.
    Mr. Green. OK. So there is a way we can do that. Because 
like I said, it is almost like a joke sometimes. My 
constituents say, ``I will get that. But I call and there is no 
one available. And then I will get another card 5 months later 
and they are still not available.''
    But they are supposed to be available to our dealerships?
    Ms. King. Because this is the largest and most complex 
automotive recall in history, we are staging by risk. So it may 
be that they are receiving a notification that there will later 
be a request for them to come in. But the vehicles that need to 
have a replacement now, there is a supply available. There 
should be supply available. If not, contact NHTSA immediately.
    Mr. Green. Is there on your website a list of those 
particular vehicles?
    Ms. King. Yes.
    Mr. Green. Is there a requirement to send out that card for 
something that is immediately like that, instead of someday we 
will get our new airbags?
    Ms. King. I have one of those cards, too, and my airbag has 
already been replaced.
    So, again, 50 million airbags, it is such a large and 
complex program.
    Mr. Green. I know.
    Ms. King. I understand the efforts to notify may have 
created confusion in some. But www.nhtsa.gov/recall, enter the 
VIN, folks can find out.
    Every time I got to my dealer, I ask them, ``Are you 
sure?'' So I know that the dealerships are also very attentive 
to this.
    But I encourage people to reach out to NHTSA, to call us, 
and to make sure that they are speaking with their dealership 
and taking care of the problem.
    And I am delighted to hear that you and your constituents 
are attentive to the issue. As I mentioned, what keeps me up at 
night is that people aren't aware.
    Mr. Green. And I will share the NHTSA website and we will 
put it on. I hope other members, too, that have the same 
problem.
    My other question is, in 2015 Representative Mullin and I 
sponsored a provision on the FAST Act that allows small volume 
car companies to produce up to 325 replica cars in a year for 
the U.S. market and 5,000 for the export market. These are 
brand new vehicles that look like vintage cars, like classic 
Cobras, Mustangs.
    And in our area, I have a DeLorean factory in my district, 
and that is why I was interested in that bill because the owner 
of that DeLorean inventory said, ``We could actually expand 
this probably with 120 more employees.''
    In Texas, we don't do a lot of car manufacturing up in the 
Dallas/Fort Worth area, so I would like to have them in our 
district.
    NHTSA had until December 2016 to issue any necessary 
regulations needed to allow these companies to start producing 
replica vehicles, the only assessing regulation allowing 
companies to register with NHTSA and file an annual report.
    These companies have already made sizable investments and 
are ready to go to work. It is important that they are able to 
register with NHTSA in the production immediately in accordance 
with the law. I would ask you, when is that going to happen?
    Ms. King. Thank you.
    If I, first of all, may thank you for your letter in the 
fall. I was pleased have your letter and pleased to a reply.
    We have looked into using guidance, but we have a 
rulemaking coming out this year. And so I look forward to 
hearing your constituents and others to comment on that 
rulemaking. We should see that by summer.
    Mr. Green. OK. So by the summer of 2018?
    Ms. King. Yes.
    Mr. Green. OK. Thank you.
    Ms. King. Thank you.
    Ms. Green. Thank you, Mr. Chairman.
    Mr. Latta. Thank you. The gentleman yields back the balance 
of his time.
    The chair now recognizes the gentleman from Florida for 5 
minutes.
    Mr. Bilirakis. Thank you very much, Mr. Chairman. I 
appreciate it.
    Thank you for your testimony today. I appreciate it very 
much.
    Ms. King, I introduced H.R. 3413, which was eventually 
rolled into the SELF DRIVE Act, which brings stakeholders 
together to ensure we maximize mobility benefits for senior 
citizens. How do you see self-driving vehicles improving the 
lives of senior citizens?
    Ms. King. Thank you for your question.
    I think we all understand, not only the safety benefits, 
but we are very, very excited about the opportunity to add 
mobility to certain communities as a result of the innovative 
technologies.
    The aging community, of which I am slowly becoming a part, 
is clearly one of the communities that can benefit from self-
driving cars, or forgive me, automated driving systems. So we 
look forward to seeing the technologies evolve safely and test 
safely so that we can see that mobility and safety promise come 
to our streets.
    Mr. Bilirakis. OK. Thank you.
    Next question. Given the significant mobility benefits of 
self-driving cars, you just mentioned that, how is NHTSA 
focusing on these certain segments of our population, such as 
those with disabilities?
    Ms. King. In the context of automated driving systems 
specifically?
    Mr. Bilirakis.  Yes.
    Ms. King. Very good. So in our discussions of the automated 
driving system promise, we are hosting many dialogues and 
taking comments to understand not only the benefits, but the 
concerns.
    In particular, one of the things the research tells us, and 
I think many of us read this in the newspaper reports, is that 
consumers have questions and concerns about the emerging 
technology. That is not surprising because the technology is 
emerging and it is very hard for us all of us to understand a 
thing we haven't experienced or seen yet.
    So we are in dialogue with many of the manufacturers. Part 
of that dialogue is, as described in A Vision for Safety 2.0, 
to help us all understand where the sources of confusion are.
    We find that terminology may be one of them. We all use 
different terms. A moment ago I used a term I shouldn't have, I 
said self-driving car. We speak about automated driving 
systems.
    But there are so many terms out there, right, level three, 
level four, self-driving car, driverless car, automated driving 
system. Even the terminology is confusing. It is confusing to 
me at times.
    We need to make sure we are adopting a common set of 
terminology that makes it easier for us to have meaningful, 
rich discussion with our communities, with state and local 
governments, as well as with manufacturers.
    So this is one of the things we are learning, that as the 
technology develops we all need to circle up on some of the 
terminology so we have more effective dialogue together as the 
technology evolves safely.
    Mr. Bilirakis. So do you envision a person, let's say a 
senior or someone with disabilities, like myself, I have visual 
difficulties, having access to an automated car, instead of a 
self-driving car, in the near future? How far are we from 
something like that? Now, something that is affordable, 
obviously.
    Ms. King. If there is one thing I learned during my time as 
a research scientist at the old Bell Labs, is that the 
development of technology goes at the pace it needs to go. So I 
would be hesitant to forecast, because what consumers will 
adopt, what the technology is ready for in a safe deployment or 
safe development path, is something that is very difficult to 
predict.
    Certainly, it is my hope that the technology is safely 
tested and deployed to provide the access to mobility for all 
members of our community. But at NHTSA, as the leader of NHTSA, 
I am committed to making sure that the testing and deployment 
is safe and that we have an effective dialogue to ensure that 
that is so.
    Mr. Bilirakis. Of course safety is more important than 
anything.
    Let's see. I know you touched upon the opioid issue, so I 
will go on to the next question.
    Can you please explain how consumers can determine whether 
they are affected by a recall? And I know that Representative 
Green touched on this as well. But if you could expand, I 
would, please, because this is very informative for our 
constituents.
    Again, can you please explain how consumers can determine 
whether they are affected by a recall and offer other 
recommendations as to what consumers should do if they find 
themselves affected by a recall?
    Ms. King. Thank you for asking. Www.nhtsa.gov, that is our 
website, the National Highway Traffic Safety Administration, 
www.nhtsa.gov.
    One will see there, right at the top of our web page, a 
recalls banner. One can click and go in and enter a vehicle 
identification number and see any outstanding recalls on one's 
vehicle.
    I routinely check it. I have become clearly much more 
sensitive to the urgency of recalls since I have been at NHTSA. 
One can enter one's email address and get an alert to remain 
always current on outstanding recalls.
    For those who may not have a computer or feel comfortable 
doing so, a consumer can call the dealership, they can call the 
manufacturer, and they can have it checked. I do use a 
dealership for my own car, and I find it helpful that they keep 
a file, and they will tell me whether or not there is anything 
outstanding. And they can describe it to me if I have any 
questions.
    But the key is that consumers find out whether or not they 
have an outstanding recall, and if it is an urgent recall or 
any recall they should act. But in particular the Do Not Drive 
recalls announced on Monday are absolutely critical. Do not 
drive. Call the dealership. A tow truck will come. The recall 
remedy is free.
    Mr. Bilirakis. Give us the number, again, please, for those 
who are watching.
    Ms. King. Absolutely. Let's see, where did I put it? I 
looked up from my piece of paper.
    I would like, if you don't mind, if we could post it on 
your website. I would recommend people go to www.nhtsa.gov. And 
I seem to have misplaced phone number, in my sense of urgency 
that consumers find out about the recalls outstanding on their 
vehicles.
    Mr. Bilirakis. Thank you very much. And we want to put that 
on our websites as well so that consumers can have access.
    Ms. King. Thank you.
    Mr. Bilirakis. So thank you very much.
    And I yield back, Mr. Chairman. I appreciate it.
    Ms. King. Thank you.
    Mr. Latta. Thank you very much. The gentleman's time has 
expired.
    The chair now recognizes the gentleman from Massachusetts 
for 5 minutes.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here as well. Thank 
you for your work. Thank you for your service.
    I am going to ask you to touch on a couple of different 
rulemakings that I believe NHTSA was supposed to have begun and 
just ask for an update on that process if I can.
    So, first off, with regard to tires. The FAST Act mandated 
that NHTSA write a rule to ensure that tire pressure monitoring 
systems cannot be overridden, reset, or recalibrated in such a 
way that the system will no longer detect when inflation 
pressure has fallen below a significantly underinflated level. 
NHTSA has yet to take any action on that requirement.
    So, Ms. King, I was hoping you could shed some light on 
when NHTSA will issue a final rule on that tire pressure 
monitoring system.
    Ms. King. Congressman Kennedy, we have begun work on all 
requirements in the FAST Act, including the tire rules. It is 
on our regulatory agenda. We are making progress forward, and 
we look forward to taking next steps as described in our 
regulatory agenda. I believe we have a proposed rule step 
before we go to the final rule step. And I look forward to 
discussing that with you.
    Mr. Kennedy. And, ma'am, do you have any--I realize I am 
putting you on the spot a little bit here--do you have any 
idea, is that months, is that how many months? How long until 
we think we are getting to that process?
    Ms. King. I would like to consult the regulatory agenda and 
send you the date that we have currently scheduled. I, myself, 
have been receiving information about that rulemaking, and, I 
will say, becoming smarter about the requirements in the tire 
pressure monitoring system rulemaking.
    Mr. Kennedy. Thank you, ma'am.
    Ms. King. So I know it is something under active 
discussion, not only from us, but from those interested 
parties.
    Mr. Kennedy. So if your staff could follow up with that, I 
would appreciate it. Thank you.
    Similarly, with the seatbelt reminder rulemaking, MAP-21 
required that NHTSA initiate a rulemaking proceeding to require 
rear seatbelt reminder systems. Again, my understanding is that 
NHTSA has not taken any public action on that statutory 
mandate, and, in fact, the agency has been sued by safety 
advocates for its failure to take action.
    Can you bring us up to date on whether NHTSA has initiated 
a rulemaking proceeding on the rear seatbelt reminders?
    Ms. King. Again, I would be happy to follow up with you on 
the date, consulting the regulatory agenda. It is clearly very 
important to us to protect all occupants of the car. Many of 
the rulemakings addressing vehicle safety, we do research 
before we issue a final rulemaking to make sure we consider any 
unintended consequences of the rulemaking.
    Mr. Kennedy. So, Ms. King, has the process started on that 
yet, or is it underway? Where are we in it?
    Ms. King. I would be happy to send more information about 
the status. I will say, unlike the tire pressure monitoring 
system, I personally have not been engaged in some of the 
technical details. But I also have a large team that work very 
diligently on all of the requirements under the FAST Act. I 
know work has been initiated on all of them. And I am happy to 
provide more detail about the stage of the work.
    Mr. Kennedy. OK. I would appreciate that.
    Finally, the vehicle-to-vehicle rulemaking. NHTSA has 
issued a notice of proposed rulemaking for vehicle-to-vehicle 
communications in January of last year with comments due in 
April of last year. This rulemaking is particularly anticipated 
by many stakeholders. We have heard from a number of those 
stakeholders that their plans are on hold until a final rule is 
issued.
    Can you give us any guidance as to what the timeline might 
be for that as well?
    Ms. King. Absolutely. I think we share an enthusiasm for 
the safety benefits that vehicle-to-vehicle technologies can 
offer.
    We received, as you know, a large number of comments, very 
technical comments on the proposed rulemaking, which we are 
going through now.
    The comments had, first of all, technical matter and 
diverse comments. So we look forward to learning from them. And 
we certainly hope that the dedicated spectrum will, in fact, be 
reserved and applied to vehicle safety technologies.
    Mr. Kennedy. So I appreciate that, and obviously safety 
being a primary concern. If I can push you a little bit here. 
Again, months? How many? Where are we? Do you want to follow up 
again? Kind of how long, what does that timeframe look like?
    Ms. King. We have a commitment to safety and to getting it 
right. When it comes to complex technologies with a safety 
relationship, I would commit that we get it right and then we 
move forward in a way that doesn't pick winners and losers, but 
in fact is going to optimize the vehicle safety opportunity to 
the American public.
    It is difficult to put a timeline on getting it right, 
particularly with technical matter, but you have my commitment 
to work with your staff, to remain engaged, to hear from 
stakeholders, and make sure that we move forward in a way that 
assures safety in the best possible manner with respect to 
vehicle-to-vehicle technologies.
    Mr. Kennedy. Thank you. I have got one last question, but 
given the time, I will happily submit that for the record.
    Thank you, Mr. Chairman. I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentleman from Indiana for 5 
minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Thank you, Ms. King, for your service.
    I think one of the things, I will just make a general 
comment, what you are hearing today, and you are well aware of 
this, is that at Federal agencies it is not necessarily about 
the money, it is bureaucracy, right? And you have seen the 
level of frustration of Members of Congress on both sides.
    What can be controversial about knowing whether there is a 
child left in the back seat of a car, right, and have some 
notification of that? The only controversy is how much it is 
going to cost to put it in the cars, right? We all know that.
    So it is a frustrating thing because, if I had a dime for 
every time I hear from Federal agencies--this is not to you 
personally--that we are in the process, legal is looking at it, 
and this, I wouldn't have to have a job. I would have enough 
dimes to not have a job.
    So I just want you to know and the public to know that 
there is a high level of frustration amongst not only NHTSA, 
but other agencies. And since this is about safety, and I was a 
physician before and others on this committee are concerned 
about safety, the level of frustration is pretty high, 
especially when we hear this in hearings across the spectrum.
    These rules need to be out there, they need to be done more 
quickly, not only for safety reasons, but to give an efficient 
regulatory framework for industry.
    So in that vein, with the CAFE standards, for example, and 
EPA hasn't indicated a timeline for their revised final 
determination or subsequent proposed rulemaking, I think in the 
interest of efficiency regulatory framework, we need to get 
going on this. And so I don't expect you to comment on that.
    The one thing is I am interested in the line of questioning 
about THC. I was a physician. There is evidence to show that 
chronic THC use in the developing brain, for example, young 
people, all the way into their mid- to late twenties, has long-
term cognitive changes.
    And so in that vein, for recreational use, I am against 
legalization, although there are specific potential medical 
reasons for having THC available, although it is usually the 
CBD oil, the CBD extract that actually has the medical benefit.
    It seems to me that we need to work more quickly on 
determining a national standard and what constitutes impairment 
as it relates to THC. We have states legalizing recreational 
marijuana, and that is their right. But the Federal level, as 
you know, it is still a Schedule I drug.
    So I am interested, you said there is a roundtable 
discussion among Federal agencies on this issue. But we need to 
do more than that. What are your thoughts? We need like a 
serious working group that meets to try to determine a legal 
standard.
    There is a field sobriety test. People beat that in court. 
You just get a lawyer and you go to court and you say, ``There 
is no scientific evidence I was impaired,'' and you question 
the integrity of the officers or whatever you do, right? And 
you can win that. You can't do that if you have a blood alcohol 
level or you blow into a breathalyzer and it says you are 0.1. 
You can do that.
    And so what are your thoughts on that? How do we get to the 
0.08 in some states? What was the process of getting to 
determining, hey, if you have more than that when you blow a 
breathalyzer, you are impaired?
    Ms. King. Responding to your question about the drugged-
impaired driving initiative, I absolutely agree, there should 
be more. The meeting we have on March 15 is meant to be a 
summit. We are calling it a call to action. It is a call to 
action. It is not the only action.
    What our goal is with the drug-impaired driving initiative 
is to set a strategy, to set a path, and to articulate a vision 
of what good looks like to answer exactly the questions that 
you are describing. We have in place a framework and a system 
for alcohol-impaired driving, and we do not have that level----
    Mr. Bucshon. Right. But how did we get there with alcohol?
    Ms. King. How did we get there with alcohol?
    Mr. Bucshon. Yes.
    Ms. King. I was not a part of that process.
    Mr. Bucshon. I know, it has been decades, right?
    Ms. King. Right. So I look forward to having best practices 
from that dialogue. Many of the experts we are bringing into 
the summit on March 15 are those who have been engaged in this 
discussion for some time. So I look forward to learning from 
them and to sharing those learnings out.
    But you have my commitment that as part of the drug-
impaired driving initiative, we will be considering all forms 
of impairment and we will be thinking how can we leverage the 
learnings of the alcohol-impaired driving experience, expand 
them to drug impairment, and make sure that everybody 
understands any form of impaired driving, drug or alcohol----
    Mr. Bucshon. We just need a national legal standard, law 
enforcement and the courts. If you go and you refuse a drug 
test, whatever, if you refuse a breathalyzer, whatever, we need 
a legal test.
    And I just don't see that happening at the state level 
because they don't have the resources to determine that. Even 
though ultimately they may decide where they want to be on 
this.
    It just seems like time is a factor here. We should have 
been doing this decades ago.
    The reality is, in my opinion as a medical professional, a 
lot of these things, it is based on money, right? It is just 
based on, if we determine that here is this legal standard for 
THC, then we are going to get pushed back from states that have 
legalized it because a bunch of their people are going to be 
getting arrested for impaired driving, and that is just the way 
it is going to be.
    With that, Chairman, I yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentleman from Texas for 5 
minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    I, too, apologize for not being here. We do have another 
hearing going on upstairs. I apologize, Ms. King, if this has 
already been asked.
    Obviously, you and Dr. Bucshon were discussing the issue of 
impaired drivers. I am from a state that has not legalized 
marijuana, but I recognize that other states have, and so this 
is a concern that is, I think, something we are going to 
encounter with greater frequency.
    And I think even in your testimony this morning you 
referenced the combination of, say, alcohol with another 
substance. And in fact we had just such an incident occurred in 
a district that I represent a couple of years ago. A young man 
who was crossing, probably outside of the crosswalk, a fairly 
busy street, and, yes, it was after dark, was struck by an 
individual, a young man driving a Jeep.
    And the man in the crosswalk died. And the young man who 
was driving the Jeep, I think had a 0.04 percent alcohol and a 
positive test, qualitative test for marijuana.
    No charges were brought. So his mother comes to see me and 
says, ``What in the world is going on here?'' You thought that 
she had a vendetta against the young man driving the Jeep, but 
she has lost a son. It does seem like there possibly was some 
component of impairment of the person who was operating the 
vehicle and where is the protection for her son in that 
exchange?
    So I would just be interested in some of the things that 
you are thinking about and doing. Even if it is education for 
our local district attorneys, that be mindful of the fact that, 
yes, they are under the legal limit for alcohol, but a positive 
test for marijuana may be difficult to associate a temporal 
relationship. But on the other hand, it may have a bearing, and 
this may be a case that needs to go to the grand jury and not 
simply dismissed as an unfortunate accident.
    So let me hear your thoughts on that.
    Ms. King. Thank you very much, Congressman Burgess. I look 
forward to continuing to work with you on this.
    Although I have only been at NHTSA it is now 20 \1/2\ 
weeks, I believe today is my 20 \1/2\-week anniversary, already 
in my time at NHTSA I have spent two visits to the State of 
California in the fall where they have been educating me about 
the work that is being done in the laboratories, in the DUI 
courts. I have met with prosecutors who are finding ways to 
prosecute despite the difficulty in actually having good, 
robust laboratory results that are temporally appropriate for 
determining impairment in a prosecution.
    What I have found is, yes, we have a ways to go, but, yes, 
we have some best practices to share. What I have found at 
NHTSA is that we have pockets of activity in different places. 
In the County of Orange in California, again, Congresswoman 
Walters' district has a great deal of learnings for us, but 
other areas as well where we can both leverage the best 
practices. But there are still gaps.
    None of us, no one alone is going to solve the problem, and 
none of us alone have the answers. My role at NHTSA, I am not a 
physician and I certainly have not had a history of working 
only on this issue, but at NHTSA our concern for safe driving 
gives us the opportunity to convene and to bring together the 
dialogue and to foster a community that can leverage our 
strength together.
    I want to make sure that the best practices are identified 
so that we can all start using them to save lives today, and 
that we set a strong vision for where we need to be as a 
country, identifying the gaps and identifying where we are on 
progress toward those gaps so we can close them.
    It is unacceptable that we would see people, understanding 
with our Nation's history that impairment kills, it is 
unacceptable that we would allow continued impairment from 
illicit drugs to injure families on our roadways.
    It is heartbreaking. You described a story. We all feel the 
pain of needless loss at every life, in particular around 
needless impaired driving.
    Mr. Burgess. So there was a young man who came to see me 
whose parents were lost in an automobile accident where the 
driver of the truck that hit them was impaired, and even 
admitted the impairment. His frustration was, even though this 
individual went to jail, it was for a 3-month time for driving 
with a suspended license. The impairment did not even enter 
into the prosecution. And that is a thing I think we have to 
address.
    Thank you, Mr. Chairman. I will yield back.
    Mr. Latta. Thank you very much. The gentleman yields back.
    The chair now recognizes the gentlelady from California for 
5 minutes.
    Mrs. Walters. Thank you.
    Thank you, Ms. King, for being here today.
    And I appreciate NHTSA's recent announcement to launch its 
drugged-driving initiative. Law enforcement, we know, must have 
the tools it needs to determine impaired driving, particularly 
drug impairment.
    Last Congress we passed the FAST Act, which included 
language I championed that required NHTSA to study marijuana-
impaired driving and how it affects individuals behind the 
wheel. Additionally, that study asked NHTSA to work on a 
roadside test for impairment, including a device capable of 
measuring marijuana levels. My colleagues have also raised this 
issue.
    But I would like to get some more of your thoughts beyond 
addressing the legal limits of the challenges we face in 
addressing drug impairment on our roadways and what steps that 
Congress can take to start addressing this issue.
    Ms. King. First of all, Congresswoman, may I thank you for 
your support of the marijuana report to Congress that was 
submitted last year. That report was in fact one of the pieces 
that educated me and caused me, as I stepped into my role at 
NHTSA, to take on the drug-impaired driving initiative.
    So thank you very much for your leadership on this issue 
that is of such critical importance at the Federal, state, and 
local levels.
    I do not at this point have a recommendation for 
congressional action because there is what is known and what is 
not known. I don't feel as though there has been a 
comprehensive assessment of the gaps across all drug-impaired 
driving.
    We have, as a Nation, spoken about marijuana-impaired 
driving, THC products. We have spoken about opioid-impaired 
driving. But in fact the laboratories, and I will cite the 
crime lab of Orange County in your own community, they are 
testing now for 46 different substances, I believe.
    And what I hear from the toxicologists in your community is 
that not only is it a challenge that people may have several 
substances on board at the same time, or that they may be 
masking with alcohol, but in fact that the specific chemical 
substances change. If it is a synthetic substance, the formula 
changes, and that means that the chemical test the toxicologist 
must apply, that will change, too.
    So forgive me for getting in the weeds a little bit too 
much there.
    But thanks to the work that you encouraged that was 
submitted last year, and thanks to the very skills and the 
patience of those who have been educating me where the rubber 
hits the road, where the risks are in the field, I have taken 
on that commitment to figure out what are those gaps, in 
partnership with the stakeholders, state, and local 
governments. What do we know? What do we not know?
    And then, from there, set a vision for a course for the 
future, which I think it would be appropriate for us at that 
time to get back to you with what we think the gaps are and 
where working with Congress is absolutely a critical piece.
    If I might add, public awareness is already identified as a 
gap. People know that they should not drive with alcohol 
impairment, but in speaking with the local law enforcement 
officials, it sounds as though our communities may not be as 
aware that it is not OK to drive buzzed. We have at NHTSA 
public awareness campaigns through our partnerships with 
states. We are trying to raise awareness, but simply helping 
people understand that driving impaired with drugs can kill. 
That is an immediate gap that we know that we can address 
today. I would seek your support and partnership on that. It is 
important we educate the public to drive safely when they are 
ready to drive and not when they are impaired.
    Mrs. Walters. I think that is a really good point because, 
for so many years, it was all about drunk driving. And now we 
have entered sort of a new phase, if you will, on this whole 
marijuana issue that we have to reeducate our people in this 
country to make sure that they understand. That is a really 
good point.
    I also introduced H.R. 3405, which was included in the SELF 
DRIVE Act, that expands the FAST Act testing exemption to new 
entrants developing safe-driving technology. Can you please 
speak to how important it is to maintain a level playing field 
for any type of company that wishes to test this technology?
    Ms. King. And thank you very much for that provision. We 
think it is very important that the emerging technologies be 
developed by people who are able to do it best. We think in 
this time of very revolutionary changes in automotive safety 
technology that there may be ideas coming from the traditional 
auto manufacturers, but there also may be ideas coming from 
academia or other organizations as well. So we think it is very 
important that we have an environment that welcomes safety 
driving technologies from wherever it comes, as we go through 
this journey of seeing safe deployments and testing on our 
roadways.
    Mrs. Walters. One last question. In your testimony, you 
state we are currently undergoing transportation 
transformation. And if we delay action on these changes, such 
as self-driving vehicles, do you believe investment and 
innovation will be moved abroad?
    Ms. King. As an economist, I am formally trained as an 
economist, and I believe that the investment will generally go 
where the return is, and so I would like to see that the 
investment in these potentially life-changing technologies 
remain here in the United States, that we maintain a leadership 
role in automotive technology.
    Mrs. Walters. Thank you. I yield back.
    Mr. Latta. The rest of the gentlelady's time has expired.
    The chair now recognizes the gentleman from Pennsylvania 
for 5 minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Ms. King, I introduced H.R. 3411, legislation that was 
eventually rolled into the SELF DRIVE Act which brings together 
stakeholders to make recommendations on cybersecurity for 
testing and deployment of self-driving vehicles. Can you share 
with me your observations on the importance of cybersecurity 
concerns and the role that NHTSA will be playing?
    Ms. King. I will be very happy to. Thank you for the 
question. Cybersecurity is clearly very important to us as we 
have become an increasingly digital world, and automotive 
technology is a part of that. One of the roles that NHTSA is 
playing is in encouraging the conversation through the Auto 
ISAC, the Information Sharing and Analysis Center, which is a 
collaborative group of auto manufacturers and cybersecurity 
experts and also suppliers into that industry developing best 
practices for sharing information. We did issue a guidance in 
2016 which we are very proud of. We have also asked that 
manufacturers disclose in their voluntary safety self-
assessments how they consider cybersecurity.
    I would add a key component of this in my own personal 
message on cybersecurity is that cybersecurity is not the 
domain of highly technical experts alone, but in fact 
cybersecurity is a concern to all of us. We see from our 
experience, whether it be on our home computers or on our 
phones, that there may be vulnerabilities that are driven by 
users. And so part of the cybersecurity journey will be to 
educate all of us to be thoughtful about how we use our devices 
or our cars and make sure that we all are sensitive and 
partners in the cybersecurity journey.
    NHTSA is very excited about the Auto ISAC in particular and 
looks forward to having more to share out of that effort.
    Mr. Costello. What is your expectation on deliverables?
    Ms. King. On deliverables? We do have a guidance that was 
issued in 2016, and we are now expecting to see more voluntary 
safety self-assessments from manufacturers which will describe 
how they address cybersecurity. What we see during this time of 
rapid technology change is that the deliverables evolve 
depending on the need and out of the dialogue. So I expect to 
see more work out of the Auto ISAC. I expect to see 
manufacturers not only issuing their voluntarily self-
assessments but perhaps updating them to reflect what they 
learned as the technology evolves and as they learn from one 
another. And then NHTSA of course will stand ready to continue 
to add or shape the conversation and to continue to drive the 
importance of this issue going forward.
    Mr. Costello. Now that is separate and apart from the new 
safety data initiative that will integrate data on highway 
design data with known crashes so that DOT will be able to 
analyze and estimate crash risk. Is that correct? That is a 
separate initiative?
    Ms. King. That is right. We have two initiatives actually 
at the Department, one of them the safety data pilot programs 
and one of them specifically with respect to the automated 
driving systems. The automated driving systems data pilot 
programs or pilot dialogue as well. Both of them are intended 
to help us modernize the way we think about the use of data. 
With automated drive systems, we are thinking about data-driven 
safety. We think about our role at NHTSA as a facilitator. We 
think about, where can we start small and then scale up in 
order to coordinate the use of data, reduce costs, and improve 
the effectiveness of data for managing safety risks? The pilot 
programs are an effort to understand whether the rich sources 
of data that are not talking together today can be better 
leveraged to forecast risks on our highways so that we can 
operate more safely.
    Mr. Costello. How do you view V-2-V technology maturing? 
And at what point in time do you think that we will see either 
more guidance from NHTSA or sort of whole scale buy-in from the 
automotive industry? Much is there, I think, but there is a 
little bit of--I don't way to say tension, but could you just 
share your observations on what you see moving forward there?
    Ms. King. It is a very interesting time. We all recognize 
the value of the safety benefits that can come from V-2-V 
technology. I don't know whether tension is the wrong word in 
that we see that technologies emerging and hopefully learning 
from one another. The critical thing here is to make sure that, 
as we progress, given the importance of the safety technologies 
to our roadways and to our drivers and consumers, that the 
technologies evolve in a way that provides the benefit that we 
all hope for. At the Department of Transportation, we like to 
avoid picking winners and losers. Right now, there is a 
vigorous discussion among I will say the more technical people 
and the suppliers and manufacturers around I will say two key 
technologies in particular. I encourage that discussion, even 
if it does bring tension, because we need to get the answer 
right for the Nation.
    Mr. Costello. Sure. Before I yield back, I would agree, I 
am not sure tension was the right word. I think obviously there 
is a little bit of uncertainty, and that may owe itself to the 
fact that the technologies are still evolving, and we don't 
want to cement things too early. So I think that I appreciate 
you for coming up with a better word than the word that I used 
in the premise of my question.
    I yield back, Mr. Chairman.
    Mr. Latta. The gentleman's time has expired.
    At this time, seeing that there are no other members asking 
questions today, Ms. King, we really appreciate your testimony 
today. And you kind of walked around the entire spectrum of 
what we are looking at. A lot of issues that the members had 
today were about safety, cybersecurity, issues with THC. When I 
was in the Ohio legislature for 11 years and chairing the 
judiciary and the criminal committees there, these were issues 
that we dealt with, especially talking you go about THC, and 
the question was, when you are looking at drugged driving and 
not drunk driving, but also when you are talking about what we 
were looking at today the with DUID and also about masking. And 
so there are a lot of things going on out there. I know, in 
Ohio, on some of our roads, we have got signs up to report to 
the highway patrol about drugged driving right now. So there 
are a lot of things out there. And we appreciate your testimony 
today, but we expect that from someone who is a former E&C'er. 
So we appreciate your being with us today.
    I have a letter, a document that has been submitted for the 
record by unanimous consent, a letter from the Center for Auto 
Safety. If there is no objection, the letter is accepted 
without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Latta. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record. I ask witnesses to submit their responses 
within 10 business days upon receipt of questions.
    And, without objection, the subcommittee will stand 
adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    

                                 <all>
</pre></body></html>
